<html>
<title> - OVERSIGHT HEARING CONCERNING THE MOUNTAIN PINE BEETLE EPIDEMIC IN THE WESTERN UNITED STATES</title>
<body><pre>[Senate Hearing 110-987]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-987

 OVERSIGHT HEARING CONCERNING THE MOUNTAIN PINE BEETLE EPIDEMIC IN THE 
                         WESTERN UNITED STATES

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                         MAY 5, 2008--EAGLE, CO

                               __________

         Printed for the use of the Committee on Appropriations




  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
44-164 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Department of the Interior, Environment, and Related 
                                Agencies

                 DIANNE FEINSTEIN, California, Chairman
ROBERT C. BYRD, West Virginia        LARRY CRAIG, Idaho
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
BYRON L. DORGAN, North Dakota        THAD COCHRAN, Mississippi
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            JUDD GREGG, New Hampshire
JACK REED, Rhode Island              WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
                           Professional Staff

                            Peter Kiefhaber
                              Ginny James
                             Rachel Taylor
                             Scott Dalzell
                             Chris Watkins
                       Leif Fonnesbeck (Minority)
                        Rebecca Benn (Minority)
                      Rachelle Schroder (Minority)

                         Administrative Support

                         Katie Batte (Minority)









                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Dianne Feinstein....................     1
Statement of Sarah Fisher, Commissioner, Eagle County, Colorado..     1
Opening Statement of Senator Wayne Allard........................     1
Statement of Mark Rey, Under Secretary for Natural Resources and 
  Environment, Department of Agriculture.........................     4
Rick Cables, Regional Forester, Department of Agriculture........     4
Barbara Bentz, Rocky Mountain Research Station Entomologist, 
  Department of Agriculture......................................     4
Prepared Statement of Mark Rey...................................     5
Summary Statement of Barbara Bentz...............................     8
Summary Statement of Rick Cables.................................    11
Statement of Clint Kyhl, Incident Commander, Bark Beetle Incident 
  Command Team, Laramie, Wyoming.................................    23
Statement of Cal Wettstein, Acting Deputy Forest Supervisor, 
  Natural Resource Staff Officer, White River National Forest....    27
Statement of Glenn Casamassa, Forest Supervisor, Arapaho-
  Roosevelt National Forest, Fort Collins, Colorado..............    30
Statement of Nancy Fishering, Vice President, Colorado Timber 
  Industry Association and Consultant for Intermountain Resources    39
    Prepared Statement of........................................    44
Statement of Peter Runyon, County Commissioner, Eagle County, 
  Colorado.......................................................    47
    Prepared Statement of........................................    49
Statement of Jim Ignatius, County Commissioner, Teller County, 
  Colorado.......................................................    50
    Prepared Statement of........................................    51
Additional Submitted Statements..................................    58
Prepared Statement of Mark Udall, U.S. Representative From 
  Colorado.......................................................    58
Prepared Statement of The Colorado State University Forest 
  Service........................................................    60
Prepared Statement of The Nature Conservancy.....................    61

 
 OVERSIGHT HEARING CONCERNING THE MOUNTAIN PINE BEETLE EPIDEMIC IN THE 
                         WESTERN UNITED STATES

                              ----------                              


                          MONDAY, MAY 5, 2008

                           U.S. Senate,    
      Subcommittee on the Department of the
       Interior, Environment, and Related Agencies,
                               Committee on Appropriations,
                                                         Eagle, CO.
    The subcommittee met at 8:58 a.m., in the Eagle County 
Room, Eagle County Courthouse, 500 Broadway, Eagle, CO, Hon. 
Wayne Allard presiding.
    Present: Senator Wayne Allard.
STATEMENT OF SARAH FISHER, COMMISSIONER, EAGLE COUNTY, 
            COLORADO
    Senator Allard. Before we get started I understand we have 
the Commissioner from Eagle County who would like to make a few 
comments.
    Ms. Fisher. Good morning, everyone, and welcome to Eagle 
County. I have the great pleasure and honor of introducing 
Senator Wayne Allard who's going to speak with us this morning, 
with a distinguished panel, on the bark beetle.
    Before we get into all of the things that are going wrong, 
I just want to take a minute and acknowledge what a beautiful 
day it is in the valley this morning, and how very fortunate we 
are to live in Colorado, how very fortunate we are to be able 
to all come together and have discussions like this, and talk 
in a healthy frame of mind, with the desire to try to find some 
solutions to the problems that plague us.
    I want to thank you all very much for joining us, Senator 
Allard, thank you very much for being here. With no further 
adieu, let's get this hearing started.
    Thank you.


               opening statement of senator wayne allard


    Senator Allard. Well, thank you very much, and I do want to 
thank some people, first of all, I do want to thank the Eagle 
County Commissioners and Eagle County for providing us with a 
lovely facility to have this hearing at.
    Also, I thank Senator Feinstein, the chairman of this 
subcommittee for the effort in preparing to put this together, 
and her staff--and all staff of the Interior subcommittee in 
helping put this together--and also my staff for helping 
organize it. So, it's been a team effort and we want to thank 
all of you for all your hard work and effort to get here. Thank 
you.
    Okay. All right, we need to get the--do we need to start 
over on that, or are we covered?
    Okay, okay. Well, first of all--we'll just start over. 
Thank you for the introduction, and first of all I'd like to 
thank all of the County Commissioners here in Eagle County, and 
the County--Eagle County for providing us such a tremendous 
facility. It's a great place to have a hearing, and we very 
much appreciate your hospitality.
    I'd also like to thank Senator Feinstein who's chairman of 
this particular subcommittee for all of her efforts in allowing 
this subcommittee to be put together here in Colorado to delve 
into the bark beetle problem and epidemic that we're having 
here in the State, the Rocky Mountain region.
    Also, special thanks to the staff of the Interior 
Subcommittee the majority staff and the minority staff. Also my 
staff, who's worked hard and helped put this together.
    I'm very pleased to welcome all of the witnesses who've 
agreed to appear before the Senate Interior Appropriations 
Subcommittee for this very important field hearing. We have a 
very distinguished group from the Forest Service, local 
government, and the private sector.
    Joining us on our first panel, we have Under Secretary for 
Natural Resources and the Environment, Mark Rey. The Regional 
Forester for region 2, Rick Cables, and Barbara Bentz, an 
entomologist from the Rocky Mountain Research Station.
    The second panel includes Glenn Casamassa, the Arapaho-
Roosevelt National Forest Supervisor--did I pronounce that 
right? Casamassa? Casamass?
    Then Clint Kyhl, who is the Incident Commander for the Bark 
Beetle Incident Command Team, and Cal Wettstein, who is on the 
natural resources staff, and coordinates fire issues for the 
White River National Forest.
    On our last panel, I'm very happy to see familiar faces 
from local government and industry here in Colorado. We'll be 
hearing from Jim Ignatius, Teller County Commissioner. As many 
of you know, Teller County suffered severe losses in the Hayman 
fire, the biggest in Colorado history. Jim's been a leader in 
working on the County's community wildfire protection plan.
    Also on panel three, we have Nancy Fishering, the vice 
president of the Colorado Timber Industry. In addition to her 
work with the association, Nancy serves as a consultant for the 
last remaining timber mill in the State, in Montrose.
    Finally, we have Eagle County Commissioner Peter Runyon, 
whose county facility we're sitting in today, and thanks for 
your hospitality, Peter.
    It's a pleasure to be here, and I'd also mention that Peter 
is a local businessman, as well as a county commissioner, and 
has been working diligently on the bark beetle issue.
    Again, thanks to all of you for participating today and I 
look forward to your testimony, and asking you some questions 
later in the hearing. I'd like to make a few opening remarks 
before we begin receiving testimony.
    We had an interesting hearing last month in Washington, DC 
on the Forest Service budget. I pointed out that we're facing a 
forest health crisis in this country, unlike any that I've seen 
in my lifetime. There are bark beetle outbreaks affecting 
millions upon millions of areas in the Southern United States, 
the Inter-Mountain West, and Alaska.
    A recent Forest Service report indicated that over the next 
15 years, approximately 15 to 22 million acres of Western 
forest will experience significant tree mortality from bark 
beetles.
    Yet, in the face of this crisis, the Forest Service is 
proposing to reduce its Forest Health Program by nearly one-
half for this next fiscal year. If I have anything to say about 
it, this subcommittee is going to restore those cuts to the 
Forest Service budget, and hopefully add some funding to 
address the crisis that we're facing here in Colorado, and 
throughout the Nation.
    I hope this hearing today, at the epicenter of the forest 
health crisis, will shed some light--not only on the epidemic 
here in our State, but also increases the awareness of what 
various species of bark beetle are doing throughout our 
Nation's forest. This is a national problem, and the Federal 
Government needs to be involved in addressing this issue over 
the long run.
    As a native of Colorado, and one who has hiked and fished 
in these magnificent forests all my life, it is absolutely 
heartbreaking to me that experts say within 5 years, all--
that's all--of Colorado's remaining lodgepole pine forest may 
very well be wiped out. That's millions of acres, over the next 
5 years.
    As difficult as it is to confront these facts, I know that 
it's impossible to treat all of these acres, or to create a 
defensive line around these remaining untouched areas, to 
prevent the pine beetle from killing more trees. The fact is, 
that the beetle kill is spreading and we can't stop it at a 
landscape scale.
    I hope today, however, that we can talk about some 
practical ways to prioritize areas for treatment to protect 
lives, communities and property from fire and hazardous trees--
how we can develop markets in areas like biomass energy 
production, cellulosic ethanol, and traditional salvage 
harvesting to treat the tremendous volume of dead and dying 
trees--timber on the landscape; and what we can do to restore 
these forests in a way that this kind of event does not happen 
again.
    Let me cover a few housekeeping matters before we begin. 
We're not going to use a timer at this hearing, but if you 
could try to keep your testimony at roughly 5 to 7 minutes, 
that will allow time for more questions, which I generally 
think is most helpful to us in gaining knowledge from your 
experience, as you testify before us.
    The record will be kept open for 1 week following the 
hearing, so feel free to submit your full testimony, and other 
materials, to my staff, and they will make sure it appears with 
the transcript of this hearing.
    Thank you.
    Under Secretary Rey, would you like to begin?
STATEMENT OF MARK REY, UNDER SECRETARY FOR NATURAL 
            RESOURCES AND ENVIRONMENT, DEPARTMENT OF 
            AGRICULTURE
ACCOMPANIED BY:
        RICK CABLES, REGIONAL FORESTER, DEPARTMENT OF AGRICULTURE
        BARBARA BENTZ, ROCKY MOUNTAIN RESEARCH STATION ENTOMOLOGIST, 
            DEPARTMENT OF AGRICULTURE
    Mr. Rey. Thank you. Thank you for inviting me here to 
discuss the impact of bark beetles on Colorado's national 
forests.
    On this panel, I'm accompanied on my far left by Rocky 
Mountain Research Station Research Entomologist, Barbara Bentz, 
and on my immediate left, by Regional Forester, Rick Cables.
    As is clearly evident to anyone with eyes, in the mountains 
surrounding Eagle, the mountain pine beetle is having 
widespread effects on the forests of Colorado.
    We first observed an increase in mountain pine beetle 
activity in northern Colorado in 1997. This coincided with a 
number of factors, including drought stress, and warmer than 
normal winter temperatures. Mountain pine beetle populations 
grew dramatically across the landscape of primarily mature, 
dense, lodgepole pine forests.
    An aerial survey in 2003 showed that mountain pine beetles 
have infected 227,000 acres. A 2007 aerial survey revealed that 
the mountain pine beetle epidemic had infested 1.1 million 
acres, an increase of 500,000 acres in just 1 year. This 
represents a mountain pine beetle infestation of about 50 
percent of the available host trees in Colorado. Overall, 1.5 
million acres of forest land in Colorado have been infested by 
all types of bark beetles.
    Insect epidemics, resulting in acreages of dead trees are 
natural, cyclical events. What we see today in northern 
Colorado, is beyond the scope of recent outbreaks, and 
compromises the safety of people.
    Moreover, the primary difference between previous beetle 
outbreaks and the current epidemic, is that people now live, 
work, and recreate through the lodgepole pine ecosystem. In 
addition, the forest products industry infrastructure needed to 
help address the potential public health and safety impacts is 
nearly nonexistent within Colorado.
    These profound differences--along with the scale of the 
epidemic--require approaches to reduce the effects of the 
beetle epidemic on people, while ensuring the forest that 
replaces these dying trees is diverse and resilient to change 
across the landscape.
    The effects today are being felt directly on the White 
River, Arapaho-Roosevelt, and Medicine Bow-Routt National 
Forests, but no one agency or community can begin to address it 
alone. As a result, many stakeholders, including the three 
national forests, have been forming collaborative groups.
    In 2005, as the infestation spread, people representing 
many interests formed the Colorado Bark Beetle Cooperative. 
That cooperative, led by the Colorado State Forest Service, is 
comprised of Federal, State, and local agencies, counties and 
communities, timber industry representatives, and environmental 
organizations. All five counties initially joined the 
Cooperative, this has since expanded to 10 affected counties.
    The purpose of the cooperative is to develop and implement 
a comprehensive strategy to address ongoing and projected 
forest mortality, and the resulting impacts. Recently, the 
cooperative has expanded to include nonprofit organizations, 
recreational interests, wildlife groups, scientists, and more 
State and Federal agencies. The core team--composed of elected 
officials, State and Federal agency leaders, and 
representatives of environmental, timber industry, and utility 
groups--work to implement the strategy developed by the 
cooperative.
    The core team recently updated the objectives of the 
cooperative, and will convene here, in Eagle, on May 20, to 
further define actions to implement four key objectives--first, 
to protect homes and communities, second to protect watersheds 
and water supplies, third to protect infrastructure, and 
fourth, to develop communities' resilience to adapt to 
disturbance-driven ecosystems.
    Responding to the bark beetle infestation is the top 
priority for the Rocky Mountain region. Between 2006 and 2007, 
we doubled the acreage that we treated.
    A legislative proposal offered by the administration last 
year--the Healthy Forest Partnership Act--would greatly improve 
our ability to cooperate with partners to improve forest 
health. The proposal would facilitate partnerships between 
Federal, State, tribal, and local governments, to perform 
scientifically based forest, rangeland, and watershed 
restoration projects, or wildland fire risk reduction projects 
on Federal lands.
    It would also promote a reduction of risks on adjacent non-
Federal lands, and promote investments in local industry 
capacity and public infrastructure. A copy of the proposed 
legislation is attached, it is similar, in many respects, to 
legislation that you and Senator Salazar introduced earlier 
this year, and we look forward to working with you, and 
harmonizing the differences of those approaches, to see if we 
can add some additional tools to the effort to fight bark 
beetle.


                           prepared statement


    I'll submit the remainder of my testimony for the record, 
and now turn to Barbara Bentz, and finally, to Rick Cables. I 
would be happy to answer your questions, along with the next 
Forest Service panel.
    [The statement follows:]
                     Prepared Statement of Mark Rey
    Thank you for inviting me here today to discuss the impacts of bark 
beetles on Colorado's national forests. I am accompanied by Regional 
Forester Rick Cables, Rocky Mountain Research Station Research 
Entomologist Barbara Bentz, Bark Beetle Incident Commander Clint Kyhl, 
Arapaho-Roosevelt National Forest Supervisor Glenn Casamassa, and White 
River National Forest Acting Deputy Supervisor Cal Wettstein.
                                overview
    As is clearly evident in the mountains surrounding Eagle, the 
mountain pine beetle (MPB) is having wide-spread effects on the forests 
of Colorado. We first observed an increase in MPB activity in northern 
Colorado in 1997. This coincided with a number of factors, including 
drought stress and warmer than normal winter temperatures. MPB 
populations grew dramatically across a landscape of primarily mature, 
dense lodgepole pine forests.
    The aerial survey of 2003 showed that MPB had infested 227,000 
acres. The 2007 aerial survey revealed that the MPB epidemic had 
infested 1.1 million acres, an increase of 500,000 acres in just 1 
year. This represents a MPB infestation of about 50 percent of the 
available host trees in Colorado. Overall, 1.5 million acres of forest 
land in Colorado has been infested by all types of bark beetles.
    Insect epidemics resulting in acreages of dead trees are natural, 
cyclic events. However, what we see today in northern Colorado is 
beyond the scope of recent outbreaks and compromises the safety of 
people. The primary difference between previous beetle outbreaks and 
the current epidemic is people now live, work and recreate throughout 
the lodgepole pine ecosystem. In addition, the forest products industry 
infrastructure needed to help address the potential public health and 
safety impacts is nearly nonexistent within Colorado. These profound 
differences, along with the scale of the epidemic, requires approaches 
to reduce the effects of the beetle epidemic on people while ensuring 
the forest that replaces these dying trees is diverse and resilient to 
change across the landscape.
                      mountain pine beetle ecology
    Mountain pine beetles have long been a regular force of change in 
western North American forest ecosystems. The MPB occupies a diverse 
array of habitats, attacking and reproducing in many pine species 
throughout the western United States and Canada.
    Mountain pine beetles has affected more than 3.5 million acres in 
Colorado during the past 10 years, including forests dominated by 
lodgepole pine, limber pine and ponderosa pine. Several of the current 
outbreaks are the largest and most severe in recorded history. A panel 
of experts at a recent symposium focused on ``Bark Beetle Outbreaks in 
Western North America: Causes and Consequences'' suggest that two major 
factors appear to be driving the current outbreaks: (1) forest history 
and host susceptibility and (2) changing climatic conditions, 
especially elevated temperatures and drought.
    Over the past century, natural disturbances such as stand-replacing 
crown fires and blowdowns and human activities such as wildfire 
suppression and vegetation management have contributed to the existence 
of large areas of trees that are very similar in size and age. Thus, in 
many areas there is an absence of a mosaic of stand ages and types 
which helps to slow an epidemic. The size and age of these old trees 
make them an ideal food source for the bark beetles. Mild winters have 
allowed the bark beetle larva to survive the winter and warm 
temperatures have extended their growing season.
    These factors have contributed to the spread of the bark beetle 
epidemic over the last few years. Because of the extent of the 
outbreak, we soon realized that we could not stop the beetles or 
protect the forests from infestation, so we changed our focus from the 
forest to the people in it. In balancing the efficacy and efficiency of 
treatments here with other places in the Nation impacted by pests and 
disease, we are now focused on mitigating the effects of the epidemic 
on the things that people value, from their homes and livelihoods to 
their drinking water and recreational pursuits.
                      the wildland urban interface
    More and more people are moving into homes in the mountains. Over 
the last several decades, thousands of people in Colorado have built 
homes in the rural and backcountry areas adjoining national forest 
lands--what we now call the wildland urban interface.
    One consequence of the extensive tree mortality is increased risk 
of catastrophic wildfires. The threat to life and property is of deep 
concern to us, and we're working with communities and other partners to 
reduce fuels and promote concepts that help protect property such as 
the FireWise program. The top priority areas for treatment are in the 
wildland urban interface, where wildfires would be devastating to 
communities, resorts, and infrastructure.
    Should fires occur, watersheds would also be threatened. Wildfires 
can cause severe erosion, dump sediment in streams and reservoirs, and 
damage water quality. This directly affects the availability of clean 
drinking water for the 2 million people in the Denver metropolitan 
area, as well as another 750,000 residents of northern Colorado cities.
    An even more immediate public health and safety concern is the 
hazard of falling trees. The roots of dead lodgepole pine trees start 
to decay within 3 to 5 years, and eventually the trees fall down. Many 
trees in northern Colorado and southeastern Wyoming are ready to fall 
on campsites, picnic areas, roads, trails, power lines, microwave tower 
sites, water developments and improvements, ski areas, cabins, 
administrative sites, and livestock fences.
    For example, about 20 percent or 911 miles of the trail corridors 
on the Medicine Bow-Routt, White River, and Arapaho-Roosevelt National 
Forests contain dead trees ready to fall. In addition, 40 percent or 
3,467 miles of the road corridors on these forests are threatened by 
dead trees. Nineteen percent of the recreation sites contain 
significant numbers of hazard trees. Recently, these three national 
forests closed or had to delay opening 38 recreation sites until hazard 
trees are removed.
    Dead trees also threaten 100 miles of transmission lines, 5 
microwave sites, and numerous miles of water ditches, diversion 
structures, and water storage reservoirs. Ski areas are dealing with 
thousands of dead trees. We have been working with them to address 
safety concerns by removing dead trees that could fall on lifts, power 
lines, structures, and trails; treating high-value trees; and 
replanting some areas.
                     partnerships and collaboration
    The scope of the epidemic in northern Colorado is dramatic. The 
effects are being felt directly on the White River, Arapaho-Roosevelt, 
and Medicine Bow-Routt National Forests. No one agency or community 
could begin to address it alone. As a result, many stakeholders, 
including the three national forests, have been forming collaborative 
groups.
    In 2005, as the infestation spread, people representing many 
interests formed the Colorado Bark Beetle Cooperative (Cooperative). 
The cooperative, led by the Colorado State Forest Service, is comprised 
of Federal, State and local agencies, counties and communities, timber 
industry representatives, and environmental organizations. While 5 
counties initially joined the cooperative, this has since expanded to 
10 affected counties.
    The purpose of the cooperative is to develop and implement a 
comprehensive strategy to address ongoing and projected forest 
mortality and the resulting impacts. Assessments were conducted that 
identified key values at risk: communities that face increased wildfire 
threat; ski areas that are losing aesthetic and practical values 
provided by tree cover; developed recreation areas, where hazard trees 
threaten public safety; utility and transportation corridors that can 
suffer damage and interruption of service from fires and falling dead 
trees; watersheds that can suffer damage from erosion and stream 
sedimentation; habitat that is damaged by loss of trees that support 
many species; and commercial timber harvest.
    Recently, the cooperative has expanded to include nonprofit 
organizations, recreational interests, wildlife groups, scientists, and 
more State and Federal agencies. A core team composed of elected 
officials, State and Federal agency leaders, and representatives of 
environmental, timber industry, and utility groups, works to implement 
the strategy developed by the Cooperative.
    The core team recently updated the objectives of the Cooperative, 
and will convene here in Eagle on May 20 to further define actions to 
implement the objectives: (1) protect homes and communities; (2) 
protect watersheds and water supplies; (3) protect infrastructure, and; 
(4) develop communities' resilience to adapt to disturbance-driven 
ecosystems. To date, this group has developed programs to encourage 
cooperative fuel reduction projects; present workshops on topics such 
as FireWise practices and community wildfire protection plans; 
encourage emergency management planning; and identify high priority 
treatment areas and projects.
    The Colorado Forest Health Advisory Council is also quite concerned 
with the mountain pine beetle. Regional Forester Rick Cables serves on 
the council, along with the Colorado State Forester, the Colorado State 
Director of the Bureau of Land Management, heads of State agencies, and 
a number of key stakeholders. The council was established by Governor 
Bill Ritter this year to identify short-term actions to improve forest 
health, and develop a long-term strategy to sustain the State's 
forests.
    A legislative proposal by the administration, the Healthy Forests 
Partnership Act, would greatly improve our ability to collaborate with 
partners to improve forest health. The proposal would facilitate 
partnerships between Federal, State, tribal and local governments to 
perform scientifically based forest, rangeland and watershed 
restoration projects or wildland fire risk reduction projects on 
Federal lands. It would also promote a reduction of risks on adjacent 
non-Federal lands and promote investment in local industry capacity and 
public infrastructure. A copy of the proposed legislation is attached.
                         forest service action
    Responding to the bark beetle infestation is a top priority for the 
Rocky Mountain region. In 2004, the region developed an accelerated 
watershed and vegetation restoration plan that is used to identify 
funding opportunities within the region to accelerate treatments in 
high risk watersheds and wildland urban interface areas.
    In early 2007, the White River, Arapaho-Roosevelt, Medicine Bow-
Routt National Forests and the Rocky Mountain Regional Office chartered 
the Bark Beetle Incident Management Team to increase communication, 
coordination, and efficiencies within the agency, with the public, and 
with our partners. The team worked with partners to develop a 6-year 
implementation plan, with more than 240 projects planned that will 
treat more than 100,000 acres through 2012.
    The team is helping these three forests accomplish on-the-ground 
activities that will mitigate impacts from the bark beetle through: (1) 
vegetation treatments including timber salvage and fuel reduction 
projects near communities and critical watersheds; (2) reducing the 
hazard of falling trees to recreation and public infrastructure; and 
(3) ensuring that the forest which grows up to replace these dead and 
dying lodgepole pine forests--the ``next forest''--is composed of 
diverse species of varying ages to increase forest health and 
resiliency.
    In fiscal year 2007, the region treated nearly 15,000 acres, 
including more than 9,000 acres of timber harvest, almost 14,000 acres 
of fuels treatment, more than 1,000 acres of forest health treatment, 
and 130 acres of hazard tree reduction along roads and trails, and in 
recreation areas. This represents more than a doubling of 
accomplishments from fiscal year 2006.
    This spring, the team is focusing on addressing the critical public 
safety hazard of dead falling trees. The team is also working to 
streamline processes for timber sale preparation and other activities 
to treat more acres and is pursuing cost-saving options including the 
use of prison crews, youth crews, and hotshot crews between fire 
assignments to fall hazard trees and pile slash. We are mobilizing 
resources from other forests and regions to assist in these efforts.
    The region is using Healthy Forest Restoration Act authorities to 
expedite environmental analysis with the help of local collaborative 
groups. The forests plan to increase treatments using this authority in 
2008. The region is also using the Colorado Good Neighbor Authority 
with the State to expedite work in the wildland/urban interface, 
including timber sales, fuel reduction, treatment and salvage of 
beetle-infested trees, and thinning. In Grand County, the Colorado 
State Forest Service is conducting projects under a statewide agreement 
for which the U.S. Forest Service is providing funding through 
reimbursement.
                               conclusion
    As you can see, the Forest Service, Colorado State Forest Service, 
Bureau of Land Management, and other partners are working to reduce the 
impact of the mountain pine beetle epidemic on people by reducing fire 
hazards near communities, identifying and treating areas with hazardous 
trees that pose a public health and safety risk, and working to 
increase the health and resiliency of the next forest.
    This concludes my remarks. I would be happy to answer any questions 
you may have.

    Senator Allard. Thank you, Mr. Rey. We look forward to 
working with you on the legislation. We've already done work 
already.
    Barbara, are you next, Bentz?

                   SUMMARY STATEMENT OF BARBARA BENTZ

    Ms. Bentz. Yes. I'm going to focus my comments strictly on 
the mountain pine beetle----
    Senator Allard. On what?
    Ms. Bentz. I'm going to focus--can you hear me?
    Senator Allard. Yes, okay.
    Ms. Bentz. I'm going to focus my comments strictly on the 
mountain pine beetle. As you mentioned, there's a lot of other 
insects, but----
    So, the mountain pine beetle are very tiny, they're less 
than one-quarter of an inch long, and many people ask the 
question--how does such a tiny insect kill something as large 
as a tree? They accomplish this through a combination of large 
numbers of individuals, and appropriate timing.
    Hundreds of beetles must attack the same tree within a 1- 
to 5-day time period to kill it. When the beetle attacks, it 
ingests tissue from the tree, compounds in the tree tissue are 
synthesized in the gut of the insect, and produce what we call 
attractant pheromones. Those are released from the beetle, and 
when other beetles smell those, they're attracted to the tree. 
When more beetles are attracted to the tree, more attractant 
pheromone is produced. We use the term ``mass attack'' to 
describe this process.
    So, trees stressed by factors such as drought, fire injury, 
or pathogen infection can have lowered defenses, and require 
fewer attacking beetles to overwhelm and kill the tree. 
However, large, nonstressed trees, that are more healthy, 
provide a greater resource for the developing larvae, which 
feed on the phloem, which is beneath the outer bark.
    So, while stressed trees may trigger an outbreak, 
population growth is also dependent on an adequate food supply 
of these larger, nonstressed trees.
    So, beetle developmental timing is very important to this 
mass attack strategy, and over the course of an entire year, in 
low elevation, lodgepole pine forests, the insect must remained 
synchronized with the temperature of its environment, to ensure 
adult emergent from brood trees within this very small window 
of time.
    This developmental timing is driven by temperature. In high 
elevation forests, where temperatures are cooler, a single 
generation has typically required 2, or even 3 years--much 
longer than the 1 year required in the low-elevation forests. 
These protracted life cycles are not conducive to an outbreak.
    In addition to developmental timing, mountain pine beetle 
mortality can also be significantly influenced by temperature--
cold temperature, in particular. To survive cold temperatures, 
they produce and accumulate what we call antifreeze compounds. 
These compounds protect the insects from cold that can often 
approach minus 40 degrees Fahrenheit.
    Due to this anti-freeze acclimation requirement, however, 
it's the fall and spring--when these unseasonable cold snaps 
occur--when the insect is the most vulnerable.
    So, mean--okay, if you can show the slide for me? Mean 
annual and minimum temperatures have been increasing at an 
increasing rate since the late 1970s, both globally and in the 
Western United States. I don't think this is anything new to 
most people. At high elevations, our research that we've been 
doing suggests that these temperatures have resulted in a shift 
from a 2-year mountain pine beetle life cycle, to a 1-year life 
cycle--this is at the high elevations.
    The combination of mountain pine beetle, and the exotic 
pathogen, white pine blister rust, are devastating many high 
elevation forests throughout the West. Many of them are at a 
point where they're being called functionally extinct.
    In the low elevation lodgepole pine forests, we hypothesize 
that the longer growing season and the higher minimum 
temperatures have increased mountain pine beetle reproductive 
rates and survival, although populations in these low elevation 
forests are still on a 1-year lifecycle--they have not shifted.
    A slight shift in survival of even 1 to 2 percent can have 
significant impacts on the growth of mountain pine beetle 
populations. They often experience 98 percent mortality, and 
even a shift of 1 percent, so that they're 97 percent, can 
really increase the populations.
    So, the next slide, please?
    Colorado experienced a severe drought between 2000 and 
2005. Undoubtedly, many conifers were stressed during this 
event. As mentioned previously, stressed trees require fewer 
beetles to overcome their defenses. Although we have no 
correlative data to prove the association, we believe that a 
combination of drought stress, which weaken the trees, and warm 
temperatures, which have a positive influence on beetle 
survival numbers, have favored mountain pine beetle populations 
at all elevations.
    Even though drought may have subsided in some areas, the 
warm temperatures continue to drive the mountain pine beetle 
growth, even in the nonstressed forests. This is a slightly 
different scenario than the recent occurrence of large areas of 
pinion pine mortality, across the Southwestern United States. 
Drought stress and warm temperatures triggered an increase of 
the pinion ips beetle. However, once the drought subsided, so 
did the pinion ips beetle populations.
    A hallmark of mountain pine beetle population dynamics is 
the self-amplifying, positive feedback processes that can 
continue to act, even when the initial trigger is released.
    In addition to appropriate climatic conditions, suitable 
forest structure and age must also exist for bark beetle 
populations to grow large enough to infest and kill trees at a 
regional scale. As one of my colleagues from Alaska says, 
``Widespread, mature forests are the loaded gun for bark beetle 
outbreaks, and weather is the trigger.''
    Many conifers in Western North America, including Colorado, 
have size and age conditions that are highly susceptible to 
bark beetles. However, although--being most susceptible does 
not necessarily mean it's the most suitable. As I mentioned, 
these insects require thick phloem to increase their population 
size.
    So, the contributing factors for the susceptibility vary in 
relative importance from area to area, include widespread 
stand-initiating fires, that were both natural and human-set, 
timber harvesting near the end of the 19th century, and in some 
areas, lack of new stand initiation, as a result of fire 
suppression.
    Mountain pine beetle have long been forces of change in 
western North American forests. At the scale of a stand, the 
impact of mountain pine beetles we see today is probably not 
all that different from previous events in lodgepole pine 
forests in Colorado, however, the spatial pattern of the 
outbreaks across the region have changed.
    Evaluating appropriate management responses to this 
disturbance event require thoughtful consideration of the long-
term influence of any management acting on the surrounding 
landscape. In the self-amplifying stage of the current 
outbreak, it is difficult to impede population spread.
    However, protection of high-value individual trees remains 
a valid option, and I have some talking points that were 
developed by Forest Health Protection, describing some of the 
insecticides that can be used in protecting high-value trees.
    The removal of dead trees and other fire fuels have been 
shown to reduce fire risk in the immediate vicinity of a home 
or a structure, and is advisable under most circumstances. At 
the larger regional scale, however, the influence of bark 
beetle outbreaks on fuel dynamics and fuel behavior is less 
clear. We know it's a very complicated and dynamic process and 
can vary greatly, depending on many factors, including pre-
outbreak stand conditions, and most importantly, weather.
    Climate will continue to change, and it's imperative that 
we design restoration plans that take into account the effects 
of new climate on our existing--the organisms that exist in our 
current ecosystems, including the conifers and the insects.
    As temperature continues to increase, mountain pine beetle 
survival and reproductive capacity will also increase, but only 
to a point. Our research suggests that unless this insect is 
capable of rapidly adapting to increasing temperatures, many 
populations may go locally extinct. This is because of this 
evolved tight synchrony between the beetle developmental 
timing, and temperature that I mentioned earlier, that 
facilitates this mass attack strategy. This could be disrupted 
as temperatures continue to warm.
    To make informed decisions regarding restoration of 
currently impacted forests, as well as beetle population 
spread, an understanding of how continued warming will affect 
mountain pine beetle success is also needed.
    Additionally, just as mountain pine beetle is expanding its 
range into lodgepole pine forests of northern British Columbia, 
and northern and central Alberta, many aggressive bark beetle 
species that currently reside in Mexico, in the southwestern 
United States, could also expand northward as the climate 
continues to increase--as temperatures continue to increase--
they could expand northward to occupy niches that may be 
vacated by mountain pine beetle.
    Those conclude my remarks, and I'd be happy to take some 
questions at the end of the panel.
    Senator Allard. Thank you for your very interesting 
testimony.
    Rick, yes?

                    SUMMARY STATEMENT OF RICK CABLES

    Mr. Cables. Well, first of all, thank you, Senator Allard, 
for convening this panel, and holding this hearing, and thanks 
to Eagle County, as well, for hosting it. I think the more 
attention that we can focus on this, and involve all of the 
stakeholders, the better off we're going to be.
    I moved into this position in 2001, and I've seen dramatic 
changes in Colorado since I've been here, and Southern Wyoming, 
as well. Not only with the prolonged drought that was just 
referred to, but also, in 2002 you will remember--and I 
remember vividly--the fire season, with the Hayman fire, 
Missionary Ridge, and the other fires.
    So we had the backlash and the issues around that, and then 
the mountain pine beetle was gaining traction, as well. You 
mentioned that you like to hunt and fish and enjoy the woods, 
as do I, and I can remember hunting elk in the Williams Fork 
several years ago, when all the trees were green, and now 
they're predominantly all grey, or dead, in that part of 
Colorado. So, dramatic changes, just in my tenure in this job.
    I want to talk about the mountain pine beetle event, 
itself, and Fran, if you'll pull the slides up. I just want to 
walk through the years since, I think, Mark mentioned starting 
in 1996 or 1997. In 1996, and you can see these--these just 
these little teeny red dots around, this is where our aerial 
survey picked up beetle activity in spruce beetle, red being 
pine beetle. Go ahead to 1998, 1999, 2000, 2001, and this blue 
is from the blowdown on the Mount Zirkel wilderness was bark 
beetle, and then 2005--I'm sorry, okay, so this is 2003--we had 
a blowdown in 1997 in the Mount Zirkel wilderness, 20,000 
acres, and that's mostly spruce beetle.
    Keep going, Fran--2004, 2005, and just in 2007, it 
increased between 2006 and 2007, 500,000 acres.
    Our strategy has evolved from initially, the thought was, 
well, maybe we can get ahead of the beetles, maybe we can do 
something to actually stop the tide, or slow the tide, and we 
were quickly overwhelmed with the scale of this event, as 
Barbara just talked about.
    So, now the concerns evolved more into concern about fire, 
the effects of fire, and also the blowdown of the trees, and 
what we're going to do about those sorts of things.
    The values that people care about in these communities--
first of all, county commissioners and others are very worried 
about emergency response. So, protecting communities from fire, 
and protecting this infrastructure--recreation infrastructure, 
ski areas, campgrounds and the watersheds--and if you'll show 
the slide on the reach of Colorado and Wyoming watersheds--
again, my region includes two--Colorado and Wyoming, and three 
other States, but--just the mountains in Colorado and Wyoming--
and this is Colorado--13 States, and 177 counties--and this is 
California, Arizona, New Mexico, the Rio Grande System, the 
Arkansas system--13 States and 177 counties get some 
appreciable amount of their water from these watersheds that 
we're talking about right now that are, that are--we're worried 
about, that have felt the influence of this change. So, just 
the watershed values alone are huge. You know, full well, the 
effect in Colorado of the water that comes from the national 
forest in the high country.
    So, what is our response been? These are the values at 
risk, and this is the event upon us. First of all, this is such 
a multi-jurisdictional, large-scale event, everyone's 
affected--the communities, the county commissioners, the 
conservation, environmental organizations are stakeholders in 
this. The Northwest COG--Gary Seeverson's here, represents 14 
jurisdictions--they care deeply about what's happening in the 
woods, and in and around their communities.
    We've got a four-pronged approach. The first thing we 
decided, we needed to build collaboratives and constituencies 
and a spectrum of interests that would hold together and help 
us solve the problem. So, just as post the Hayman fire, we 
started this Front Range Fuel Treatment Partnership roundtable, 
and all of the groups that are represented in that 
collaborative are on the back here, to include us, the 
Department of the Interior, counties, Colorado State Parks, the 
National Forest Foundation, The Wilderness Society, The Nature 
Conservancy, Colorado State Forest Service, so--that's the big 
collaborative on the Front Range, to deal with the post-Hayman 
event, which is not so much beetle-driven right now, as it is 
the threat of fire, and that's still very real.
    Then you come over the mountain, here, to the--and Mark 
mentioned in his testimony, the Colorado Bark Beetle 
Cooperative. I can tell you--our friends in Wyoming, where we 
have a big chunk of this event is occurring now--are irritated 
that we call it the Colorado Bark Beetle Cooperative, because 
there is a tremendous effect on the Medicine Bow National 
Forest in southern Wyoming, now, from this event.
    But that has--that group has been a huge success in working 
across the spectrum.
    The result of both of these large collaboratives has been, 
I believe, we've got more social license now than any time I 
can remember, to actually practice forest management. So--and 
it takes that kind of collaborative set of folks, with everyone 
working together, to build that social license.
    So, the inhibition right now to work on this has nothing to 
do with public support, we have a lot of public support to do 
this work.
    The second part of the strategy is focus. We've redirected 
funds to these areas from within the region, you and others 
have helped us get more funds into the region, and we really 
appreciate that. I know Mark and the folks back in Washington 
are highly concerned about this. We've got a Bark Beetle 
Incident Management team, where we decided--like a fire, when 
we have a large fire, we create an incident management 
organization.
    Clint Kyhl will be on the next panel, and he's the Incident 
Commander. We just felt, when it crossed multiple forests and 
multiple jurisdictions, we needed an incident management-type 
of a structure. We put that in place several years ago, and 
they've really been working hard on that.
    A third aspect of our strategy is to utilize the whole 
suite of new authorities available to us. That includes healthy 
forest--the President's Healthy Forest Initiative, the Healthy 
Forest Restoration Act, which was promulgated in 2003. Just in 
that, we've got nine projects under that in Colorado, in the 
last several years, that have covered 73,000 acres.
    We've got 54 stewardship contracts, which is another new 
authority, that have accomplished work on about 26,000 acres in 
Colorado. Then we've got the Colorado Good Neighbor Authority, 
which allows the State forest service to work as an agent for 
us on Federal lands, and that's been really great. Mark 
mentioned this legislation, the Healthy Forest Partnership Act, 
which takes that authority and expands it nationally, and 
that's an excellent authority.
    So, that was the third one, using these authorities. The 
last prong in our attack, or our strategy's been working with 
industry to try to both keep the existing industry as vibrant 
as we can--and as you said, there's only one large mill left in 
Colorado--but also incentivize new industries.
    Pellet plants, we've got a couple of new pellet plants, I 
know there's a $30 million Department of Energy grant for 
looking at cellulosic ethanol that's going to be down in 
Commerce City, I believe, in Colorado.
    Fran, if you'll just take--pop up the last two slides--this 
is just a chart that shows how we've grown our--just our timber 
volume--again, to try to keep the industry vibrant and also 
look for new opportunities, and this is just in Colorado--and 
the next one, please, Fran--and then just on the three forests 
that are at the heart of the bark beetle epidemic right now, 
that's how that looks, in terms of the progression. So, we've 
been working as hard as we can to focus energy, and do work on 
the ground, and you'll hear more about that from the next 
panel.
    That concludes my remarks.
    Senator Allard. I want to thank this panel, and I have a 
few questions. I'm going to--Barbara, you're the entomologist, 
so on the--I want to clarify what's happening on the life 
cycle. We had 2- and 3-year life cycles on the beetle, and now 
it's converted to a 1-year life cycle? Did I understand that 
right?
    Ms. Bentz. The 2- and 3-year life cycles were at higher 
elevations, and in Colorado, that's in limber pine, and across 
the West it's in white bark pine. At these higher elevations, 
typically above around 9,000 feet--has shifted to, a large 
proportion, of 1 year.
    In the low elevation pine forests, lodgepole pine, which is 
most--where most of the outbreak is--it's always been 1 year, 
and it still is. So, that life cycle has not shifted.
    Senator Allard. Well, I'm thinking like, in the Routt 
National Forest, a lot of those trees are 9,000 feet or above, 
or right at it. That's where we're seeing a lot of our 
outbreak, and what not.
    Now, once that cycle has changed, will it revert back to a 
longer life cycle at some point?
    Ms. Bentz. It's typical--it's just--it's totally 
temperature driven. It can change from 1 year to the next.
    Senator Allard. So, if we had several cold winters, those 
life cycles would lengthen out, you think?
    Ms. Bentz. The life cycles are more affected by the 
temperature in the summertime.
    Senator Allard. I see.
    Ms. Bentz. Because that's when the insects are developing 
through their life stages. They pretty much just don't do 
anything in the winter.
    Senator Allard. Now, they fly about the first part of July, 
is that right?
    Ms. Bentz. The middle of July, yes.
    Senator Allard. Yes, the middle of July is when we thought.
    Ms. Bentz. So, it can change--1 year you might have--and I 
had a student that did this for her Master's thesis, she 
monitored the population life cycle in high elevations. One 
year you had 30 percent of the beetles developed on a 1-year 
life cycle, and then the next year, it was only 60 percent, or 
it was 60 percent.
    So, it can change from year to year, and it's totally 
dependent on the temperature.
    Senator Allard. So, the infestation is spread by the--what 
things have to happen to enhance the spread of it? Of the 
beetle? How are they spread, I guess, is the basic question?
    Ms. Bentz. The insect itself?
    Senator Allard. Yes.
    Ms. Bentz. They disburse--they can disburse on wind 
currents, that's just non--that's passive. Just get brought, 
taken up into the air currents and taken for quite a distance. 
Then--but most of their flight is directed to this attractant 
pheromone that I was mentioning, so that would be within a 
shorter time.
    Senator Allard. That's produced by the beetle itself.
    Ms. Bentz. It's produced by the beetle itself.
    The beetle takes advantage of the tree, and uses part of 
the tree to produce this pheromone.
    Senator Allard. Pheromone, so it's a self-feeding, sort of 
thing.
    Ms. Bentz. Right.
    Senator Allard. Now, we had a blowdown up in the Routt 
National Forest that was pretty severe, and most--we have a 
prevailing northwesterly wind coming in. Do you think that 
contributed to the spread of the beetle into Routt and Arapaho?
    Ms. Bentz. So that--the blowdown was in spruce, and so that 
was spruce beetle that was attacking those trees, and it very 
well could have.
    Senator Allard. Okay. So, if we had, I mean, there was a 
partial decision, if I remember correctly, on that blowdown to 
harvest some of the downed trees and some of them were left to 
lay in a natural state. Would that have prevented the spread of 
the bark--the bark beetle, if they had harvested the whole 
blowdown?
    Ms. Bentz. Probably not.
    Senator Allard. So, you don't think the amount of food that 
would have been available by decreasing the amount of food 
would have had an impact?
    Ms. Bentz. My impression is that the insects took advantage 
of what they needed of those trees that were downed. Basically, 
when the tree is downed, it's kind of like a stressed tree, so 
it's easy to overcome.
    Senator Allard. Sure.
    Ms. Bentz. So, they can build up their population levels 
there.
    But once they build up, they're going to go and start 
attacking live trees. So, I'm envisioning that they didn't need 
to take all of the trees that were blown down--they didn't need 
to utilize all of those to build their population levels to 
start attacking the green trees.
    So, I don't think it would have made much of a difference.
    Senator Allard. So, you don't think that had any difference 
at all?
    Ms. Bentz. That was such a large--there was a large number 
of trees downed.
    Senator Allard. It was a huge blowdown, yes.
    Ms. Bentz. Yes.
    Senator Allard. Okay.
    Ms. Bentz. Areas where there's smaller numbers of trees 
down, certainly it helps to take out, you know----
    Senator Allard. The whole thing.
    Ms. Bentz. Especially if you let the beetles get in them, 
and then take them out while the beetles are in them.
    Senator Allard. There's a limited time when the beetle can 
kill the tree, is that correct?
    Ms. Bentz. To overcome the tree, they need to attack. I 
mean, I've monitored lots of tree attacks. They mass attack a 
tree in 1 to 3 days.
    Senator Allard. This is in the middle of July when they're 
flying or is it some other point in their life cycle?
    Ms. Bentz. No, this is in--they fly over several weeks.
    Senator Allard. I see.
    Ms. Bentz. But, enough of them have to be flying over those 
several weeks that one individual tree can be attacked by 
hundreds of beetles in 1 to 3 days. That's what overcomes the 
defenses of that tree.
    Senator Allard. That happens in a short period.
    Ms. Bentz. That happens in a very short period of time.
    Senator Allard. Then stress and environmental factors then 
do have an impact on the resistance of the tree?
    Ms. Bentz. Yes.
    Senator Allard. It has, okay.
    Ms. Bentz. But again, a susceptible tree is not necessarily 
the best tree for the insects, because a stressed tree 
doesn't--the phloem is really thin. The thicker phloem is what 
provides that net, per capita increase in the population.
    Senator Allard. Now, let me bring this down to an 
individual basis. There are individuals that maybe have a high-
value tree, I think, I don't know which one of you mentioned in 
your testimony, it was Rick or you--but we have high-value 
trees, and some individuals want to protect those trees on 
their own property or their own forest property next to their 
cabin. What can an individual do to protect the tree?
    Ms. Bentz. There's three insecticides that are registered 
for use to protect trees from attack. The tree has to be 
sprayed prior to being attacked. Once the tree is attacked 
there's a lot of consulting companies out there that are saying 
they can save your tree once it's already been attacked, but 
the tree has to be sprayed prior to attack. There's three 
insecticides that are registered for that.
    Senator Allard. Valathyon, and what are they?
    Ms. Bentz. No, it's--sorry, I don't have my glasses on--
carbaryl, permethrin, and bifenthrin.
    Senator Allard. Okay.
    Ms. Bentz. You have to make sure that the entire tree is 
sprayed--if only a portion of it is sprayed, the insects will 
still attack it, so it's----
    Senator Allard. What about pheromones, do they work?
    Ms. Bentz. They--they have----
    Senator Allard. Or, anti-pheromones, I guess that's the way 
they're marketed.
    Ms. Bentz. The anti-attractants?
    Senator Allard. Yes.
    Ms. Bentz. Verbinon--which is probably the one that you're 
thinking of--has had mixed success, sometimes it seems to work 
quite well, and sometimes it doesn't. So, it's sort of in the--
there's a lot of work that's still being--going on.
    Senator Allard. Have you determined when it seems to be 
most effective or least effective on pheromones?
    Ms. Bentz. It doesn't work when the populations get very 
large.
    Senator Allard. I see.
    Ms. Bentz. The recommended strategy now, is if you're going 
to use verbinon, you have to be actively taking--like in a 
campground--you have to actively be taking the infested trees 
out.
    Senator Allard. Now, one bit of new information I got here 
is that, if it was 30 degrees below zero, or colder, that it 
would decrease the population of the beetle. But, in your 
testimony you said 40 degrees, so you've got some new 
information on that?
    Ms. Bentz. One single threshold cannot be said. It can't 
be, you can't say it's minus 30 or it's minus 40.
    Senator Allard. I see.
    Ms. Bentz. Because these insects accumulate these 
antifreeze compounds, and that accumulation is dependent on 
temperature. So, the more cold temperature they have, the more 
they accumulate these antifreeze compounds, and the more 
tolerant they will be of cold temperatures. So, it's totally 
temperature driven.
    Senator Allard. Okay. Let me move----
    Ms. Bentz. It's important in the spring and fall, when 
they're not acclimated.
    Senator Allard. Yes. Now, let me move to just sort of the 
administration and the management of the forest with this 
outbreak, and maybe Rick or Mark--either one--can answer.
    Do you feel like we're getting good cooperation between the 
various forests? Roosevelt Forest with the Routt, and between 
the State of Wyoming and the State of Colorado? Or do you see 
problems there?
    Mr. Rey. No, I don't see problems there, I think we're 
getting excellent cooperation, Senator.
    First of all, we initially--as this event was building, we 
were--we did not put in place the Incident Management Team 
which looked across all the forests. So, individual forests 
were taking actions in their local circumstance, and as we--as 
it became apparent that it was, the scale was large and it 
crossed the boundaries of multiple national forests, is when we 
worked together with the local communities--Northwest COG, 
Colorado State Forest Service and others, and entities in 
Wyoming, too--to develop a cooperative where all the folks were 
at the table, and we could really work through the issues.
    Senator Allard. Yeah, this is the question I bring up, I 
mean, each Forest Manager just manages his own forest, and just 
kind of has a very narrow spectrum of that--if we had maybe a 
little longer view, I mean, more broader view on some of this, 
I wonder if, perhaps, maybe you wouldn't have gotten--begin to 
address the problem sooner?
    Mr. Rey. Well, I think we--we actually put the--this 
cooperative started working several years ago, and I think if 
you can, we can look back--and I've thought about this a lot, 
considering what could we have done more, or what--and I think 
that maybe we would have reduced the start-up time of this 
cooperative, maybe, a little bit, had we started it sooner--and 
we being the collective ``we'' of folks being involved in that. 
But I don't believe any of that would have really changed the 
course of the event. Because it's just--it's just become big, 
and as Barbara said, temperature driven, so----
    But right now, I'd say, we are working really well with all 
of the parties, and we're prioritizing where to do work with 
communities, and the adjacent landowners, and all of the 
jurisdictions.
    Senator Allard. I've heard complaints from landowners and 
sometimes local elected officials that the response of the 
Forest Service when they want to do something as a 
prescriptive--cut down around their cabin or slow the--that 
getting the permit to do that is slow. Can you address that 
problem?
    Mr. Rey. Well, I'm not--without having the specifics of 
that--let me just talk about it, in general.
    Oftentimes--well, one of the things that's occurred just 
recently is, we had under the Healthy Forest Initiative, in 
what we call Category 10, we had the ability to use categorical 
exclusions to do projects, which----
    Senator Allard. Is that the urban forest bill that passed? 
Maintenance bill? Is that where you got that Categorical?
    Mr. Rey. No, it was from the President's--it was an 
administrative----
    Senator Allard. Decision.
    Mr. Rey [continuing]. Regulatory change.
    Senator Allard. It was an Executive Order.
    Mr. Rey. Yes. Anyway there's a particular category that 
allowed us to work really quickly, minimizing the energy and 
the analysis necessary, because these projects are all very 
similar, and we knew what the effects were, environmentally.
    Senator Allard. So we don't have anything in legislation 
that grants you that emergency option? If you need to, you 
have--you're just relying right now on the Executive Order, is 
that correct?
    Mr. Rey. Well, we have two things, we have the President's 
Healthy Forest Initiative, which was a suite of tools, and then 
we also have the Healthy Forest Restoration Act, which is 
another suite of tools. Both of those give us the ability to do 
things more rapidly, minimize the number of alternatives, for 
example, we consider in our environmental documents.
    But, I was going to say, on the Category 10 area, the 9th 
Circuit reduced the--or actually struck down our ability at 
this point in time to use that particular category. So, that's 
caused a delay in terms of working around in certain projects, 
close to homes. Especially the smaller projects, where we don't 
want to do a full-scale, huge NEPA document with a lot of 
analysis when we're talking about 5-, 10-, 15-acre projects.
    Senator Allard. Legislatively, if we put the executive 
order in legislation right now, I guess this executive order 
would--could alter from administration to administration--would 
you feel more comfortable if we had that in legislation, where 
you had that option on an emergency basis to move forward 
quickly, to clear trees?
    Mr. Cables. That would allow us to utilize that authority 
again. Presently that categorical exclusion, that particular 
one, had been enjoined from use by the courts. So, the only way 
to quickly put it back into effect would be legislatively, as 
we prosecute our appeals up through the court system.
    Senator Allard. I see. Okay.
    Now let me go to the--your budget. In your budget you 
proposed to cut the Forest Health Program, the Agency 
dramatically, about 44 percent as it came to the Congress. I'd 
like to have an explanation of why you felt that cut had to 
occur, and then--well, answer that question and then I'll come 
up with the same question.
    Mr. Rey. The Forest Health account is 1 of 17 line items 
that we utilize for funding forest health improvement work, 
between the Department of Agriculture and the Department of the 
Interior. So, when we put together the President's budget, and 
array all of the money that we're going to spend under the 
Healthy Forest Initiative, there will be seven--in every budget 
since 2003, you'll see 17 different line items that contribute 
to the Healthy Forest Initiative.
    The Forest Health line item is 1 of the 17, and it's split 
between work that's done predominantly on Federal lands, and 
work that's done predominantly on non-Federal lands.
    We reduced the work done on non-Federal lands for two 
reasons--one, because as we were making priority decisions in 
the tight budget environment, we concluded that we were the 
ones primarily responsible for Federal lands, and therefore 
that had to be a priority.
    But two, we built both this year's budget proposal for 
fiscal year 2009, as well as last year's budget proposal for 
fiscal year 2008, side by side with what we proposed to 
Congress that should be funded in the farm bill. In the farm 
bill, we proposed to increase spending dramatically on 
conservation title programs.
    Senator Allard. That's mandatory spending?
    Mr. Rey. That's mandatory spending. To open those programs 
up to forest landowners, as well as farm and ranch landowners.
    Now we're, as you know, in a tight debate over the farm 
bill right now.
    Senator Allard. Yes.
    Mr. Rey. But that debate is not, primarily, surrounding the 
conservation title proposals. We, and the Congress, have 
reached, I think, a pretty close agreement.
    So, should we be able to resolve our differences on all of 
the other things--or those other things that are still 
outstanding--it's our expectation that this new farm bill will 
make a considerable amount of money available for conservation 
and forest health improvement work on non-Federal forest lands.
    So, that's how we built this budget, in totality.
    Senator Allard. Now, if you look at the totality--the 17 
categories that all contribute to forest health in the various 
budgets--were the total dollars increased from this year to 
last year? Because as a member of the Interior Appropriations 
Subcommittee, we're looking at the figures on Interior.
    Mr. Rey. Right. The farm bill is being done by someone 
else----
    Senator Allard. Yes.
    Mr. Rey. I understand that.
    The total for 2009, which we requested, was $927.5 million, 
as compared to $1.52 billion, which was appropriated, or 
enacted, in 2008.
    Senator Allard. Yes.
    Mr. Rey. Now, of that $1.052 billion, there was about $80 
million in earmarks. We usually back earmarks out for an 
apples-to-apples comparison.
    So, I would concede that our 2009 proposal is slightly 
lower than the 2008 enacted. But, you have to remember that the 
2008 enacted--even without the earmarks--was the highest level 
of appropriated dollars committed to this in history, which 
beat 2007, which was previously the highest, which beat 2006, 
which was previous to that, the highest. So, we're still--we're 
still requesting budget dollars at a level that suggests that 
this remains our top priority.
    What's different for 2009, and to a lesser extent, 2008, is 
we're also throwing farm bill resources into the fray--now 
we're hoping to throw farm bill resources into the fray--
assuming that we can reach an accord on the farm bill issues.
    The good news, I guess, is that the farm bill will have to 
be decided one way or another, before you'll have to produce 
the 2009 Interior bill. So if--if our optimism about, you know, 
the enactment of a farm bill conservation title that opens up 
opportunity doesn't prove out, then we'll be happy to sit down 
with you and Senator Feinstein to re-look at this, in the 
context of a different set of options.
    Senator Allard. Now, let's see, for this fiscal year, I was 
able to secure about $12 million for bark beetle eradication 
efforts. Rick Cables helped us on that. How have you spent that 
money?
    Mr. Rey. We allocated----
    Senator Allard. Rick can answer or you, either one.
    Mr. Rey. Yes, we allocated $8 million of the $12 million 
for fuel reduction work on the National Forest System lands, 
and the balance--or $4 million--will be distributed by State 
and private forestry as grants to States for fuel reduction on 
non-Federal lands.
    Grants would be awarded on a competitive basis--I think 
you've already sent out the solicitation, if I'm right on that?
    Senator Allard. What areas are you focusing on in the 
State?
    Mr. Cables. Well, we're focusing about--of the $4 million, 
we're focusing about 85 percent in the bark beetle counties, 
and about 15 percent on the Front Range, because we----
    Senator Allard. So, the bark beetle counties are the high-
altitude counties, is that Arapaho, Routt, and off of those?
    Mr. Cables. Right, yes. All the counties in the Bark Beetle 
Cooperative--there's 10 counties now. But the--you know, 
Jackson, Routt, Eagle, Summit, Grand--all of those counties. 
So, that's really the focus of the bulk of the dollars.
    There is a little that went to the Front Range, because 
again, even though we don't have the bark beetle occurring on 
the Front Range, we do have the same threats--the vegetation 
condition is the same that it was when the Hayman Fire 
happened.
    We're making some progress, but we're not out of the woods 
on that one. So, most of it coming to the bark beetle.
    Senator Allard. Rick, how much do you think you could 
effectively spend in 2009 to address our beetle problem, here 
in the State?
    Mr. Cables. Well--and you're going to hear from the 
subsequent panel--we've got about 100,000 acres worth of 
projects, through NEPA and ready to go, where we've got public 
support to move forward. So, last year we treated--in 2007 we 
treated 15,000 acres in the bark beetle country, which was 
double what we did the previous year.
    So, 15,000 acres we treated in 2007--this year we're going 
to treat more. We've got 100,000 acres ready to go, so we can 
treat a lot of country, as far as our resources will take us, 
that's how much we can treat, and----
    Senator Allard. So we had 15,000 acres with the extra $12 
million, so if we multiply $12 million by--what have we got 
here--32, six--and that would give us our figure, or pretty 
close to it?
    Mr. Cables. Yes.
    Mr. Rey. You will have personnel limitations kicking in, 
the money would have to be new year money, because you can't 
spend it at that rate increase.
    Senator Allard. Well, that's one of the things we're trying 
to figure out, I mean, we don't----
    Mr. Rey. Yes.
    Senator Allard. We want to provide what you can reasonably 
spend in 2009. How much of a restriction is the personnel?
    Mr. Rey. Yes, maybe what we ought to do is do a little 
sharper pencil analysis of that for you.
    Senator Allard. Okay, why don't you do that, and then, what 
you can do maybe get something to our--to our subcommittee.
    I'm not only interested in the State of Colorado, but I'm 
interested in the forest health problem all over the country. I 
would be interested in those figures nationally, as well as the 
State. I think probably, Senator Feinstein might be interested 
in California, too. So, if you could kind of bring those States 
in on an individual basis, I think that would be helpful.
    Mr. Cables. Sure.
    Senator Allard. For this subcommittee.
    Mr. Cables. Yes.
    Senator Allard. Okay, why don't we talk a little bit about 
the forest fires, and how that tends to divert money and 
resources from forest health--can you talk a little bit about 
the impacts of having to divert resources from forest 
management activities to the firefighting situation? The 
problems you have there?
    Mr. Cables. Well, let me ask Mark to maybe talk about the 
national situation, first, if that's okay.
    Senator Allard. Okay, that's fine.
    Mr. Rey. I think the impact occurs in two respects. One is 
a funding shift--in severe fire years if we've spent the amount 
that was appropriated for suppression and for preparedness, and 
we obviously can't stop fighting fires, so you've provided--
Congress has provided us with authority to borrow from any 
available accounts.
    We try to borrow, first, from those accounts where the loss 
of funding will be the least disruptive to the delivery, the 
accomplishment of the programs that that money was intended to, 
so that you--the Congress, then, has a chance in its 
supplemental appropriations bill to replenish those accounts.
    Senator Allard. What are those accounts?
    Mr. Rey. They're trust funds, if we have outstanding trust 
fund balances.
    Senator Allard. Right.
    Mr. Rey. Or capital accounts, where we're working on 
multiyear projects and we've set aside the money for the out-
year construction work that needs to be done.
    Senator Allard. I see.
    Mr. Rey. But it's not going to be done this year, because 
the project is going to take 2 or 3 or more years to complete. 
So, arguably, borrowing the out-year money, and then repaying 
it, won't disrupt the project gradually.
    Senator Allard. I see.
    Mr. Rey. So, the money issue has probably been less 
significant than the manpower issue, in the sense that some of 
the people that are deployed to fight fires, you know, would 
otherwise be doing other work during the time that they're 
deployed.
    So, those impacts are a little bit different, there's not a 
one-to-one replacement there, because the hours that were 
diverted to firefighting are not hours that you can replenish, 
as easily as you can replenish the funds. So, the impact occurs 
in two areas.
    Senator Allard. Now, we used to have--do we still have the 
firefighting program where they take in college students and 
bring them in on a fire----
    Mr. Rey. Oh, yes.
    Senator Allard. The training and still bring those in. They 
don't do regular work in the Forest Service, do they?
    Mr. Rey. No.
    Senator Allard. They just get called in on that.
    Mr. Rey. We have a significant----
    Senator Allard. But your problem is with the employee 
that's a full-time employee.
    Mr. Rey. Right. Upper level fire managers have other jobs 
in the agency. So, that's where the disruption occurs. I'm not 
sure there's any good answer to that, because it's not simply 
shifting money around, it's the fact that----
    Senator Allard. Yes, you'd have to bring in more of the 
management side, and it can't be done just overnight.
    Mr. Rey. Right.
    Senator Allard. Is your problem. Okay.
    That's all I have as far as questions or anything, and so--
--
    Mr. Rey. If I could make one----
    Senator Allard. Yes.
    Mr. Rey [continuing]. Observation.
    Senator Allard. Go ahead.
    Mr. Rey [continuing]. That I think is germane, not just to 
Colorado, but to these kinds of infestations that we've seen in 
other parts of the country.
    Because one of the questions that is reasonable for people 
to ask is, ``Well, why didn't you move faster? Knowing that 
this was coming?''
    I think what we've seen is that it takes awhile for the 
social license to develop to do aggressive activity, and that 
that social license moves more slowly than the bark beetle 
spreads.
    People seem today--if people knew years ago what they were 
going to see today, arguably there would have been less 
conflict associated with the kinds of aggressive techniques, 
the amount of timber harvesting that would be required, if we 
were going to have a chance of actually stopping an epidemic of 
this magnitude.
    Now, we might not have been able to stop it, anyway, given 
the size of this particular one. But, I think one commonality 
that we see across the country in southern California, Senator 
Feinstein's State and the San Bernardino National Forest and 
Alaska and other places--is that the social license to do 
what's necessary develops more slowly than the bark beetle 
epidemic.
    Senator Allard. People reluctant to take down a tree, but 
you sometimes have to do that to have good forest health?
    Mr. Cables. In this particular case, that's the most 
effective way.
    Senator Allard. Yes. Okay. Very good.
    Thank you.
    We'll go to the second panel, please?
    Go ahead, Clint.
STATEMENT OF CLINT KYHL, INCIDENT COMMANDER, BARK 
            BEETLE INCIDENT COMMAND TEAM, LARAMIE, 
            WYOMING
    Mr. Kyhl. Let me just fire up my PowerPoint.
    Senator Allard. Okay.
    Mr. Kyhl. Thank you, Senator. My name is Clint Kyhl, and 
I'm the Incident Commander dealing with the bark beetle across 
the three national forests in northern Colorado and 
southeastern Wyoming.
    The Bark Beetle Incident Management Team's purpose is to 
increase communication, coordination, and efficiencies, which 
we can treat across large----
    Senator Allard. Sorry to interrupt you, where is your 
office at? Where are you----
    Mr. Kyhl. I'm in Laramie, Wyoming.
    Senator Allard. In Laramie, okay. Their forest service. 
Okay.
    Mr. Kyhl. So, increasing those efficiencies across--within 
the agency, as well as dealing with the public and our partners 
has been our purposes.
    Of course, like a fire organization, we have a small team 
of, an operations section chief, a planning section chief, and 
then a variety of division supervisors that are located on the 
individual forest.
    Like an IC--or a good IC--we always want to do maps and the 
little briefing, and this is the bark beetle across Colorado, 
and the northern red patch is the area that we're focused on.
    So, as we zoom in on that area, again, we're looking at 
about one-half million acres, with about one-half a million 
increase from 2006 to 2007. The three forests--of course, the 
Medicine Bow on the Wyoming side, the Routt, the Arapaho-
Roosevelt, and the White River National Forest.
    Break out those individual forests, and look at the percent 
change from 2006 to 2007, they're pretty dramatic. The--a 
couple of points that stand out is you look at the Arapaho and 
the White River that have been kind of the epicenter for the 
bark beetle, they're--yearly survey acres actually kind of 
leveled out as they've, basically, running out of food source.
    Where we're seeing the biggest expansion is, of course, 
moving north up the range, into the Medicine Bow in Wyoming, 
and then that real dramatic number you see in the Roosevelt 
National Forest as the bark beetle has gone over the divide 
into the Front Range counties.
    Kind of hard to see, here, but again, back to an epicenter 
location, this is Grand County, Lake Granby, we're seeing that 
red across the landscape, we're looking at about 90 percent 
mortality of trees greater than 5 inches.
    This is a paired photo, this is Willow Creek Pass, north of 
Granby. You see some diversity in the landscape, and some 
speckling of red trees. Two years later you see almost all of 
the mature trees have been infested.
    But I would point out this younger stand, here, where we 
are getting mortality. So it's not, certainly, based on the age 
of the tree, but more the size of the tree. If it's greater 
than 5 inches, it meets the food source for the beetle that's 
attacking the second row of stands.
    So, what are the impacts and the safety issues that the 
Incident Management Team and the Forest Service are focused on? 
Of course, fire as we've heard from the prior panel, is one of 
our biggest, number one priority. There are a variety of 
projects we're doing in the WUI, or the Wildland Urban 
Interface, more recently focusing on watershed protection and 
infrastructure protection of those--in those watersheds.
    This is a fire last summer near Suman Ranch, which burned, 
in bark beetle stands fairly rapidly. You can see that the--the 
work that they did around those structures were critical in 
protecting those, and as well as providing a safe environment 
for the firefighters.
    Really, one of our biggest issues that we're shifting gears 
on is what we believe is really an emergency situation, is the 
falling tree hazard. This is research in Oregon on pine 
beetles, lodgepole stands. Basically, after 3 to 5 years, the 
trees start falling down at a quicker rate--up to 90 percent in 
the next 14 years, so--those 1.5 million acres out there, and 
growing, they're ultimately going to fall down, and the 
question is, what are they going to fall down and impact?
    Recently in the newspaper we did come out and have closures 
on 38 developed rec sites. Of course, being in a place where 
the public concentrates, we need to remove those hazard trees 
before we open them. This is kind of the after-treatment look, 
it's not very pretty. We have to remove all of the dead trees, 
but then the other issue is, you can see that the remaining 
live trees that are in the campsite are blowing over, so we've 
had to come back and actually remove those, so--lodgepole pine 
is a very shallow-rooted tree, so it's prone to wind-throw.
    These are the numbers--total sites for the three forests 
are 223, we had, again, 38 sites that we had to, at least delay 
opens or partial closures, as we mobilize resources into those.
    But, I would point out that we've had over 100 other sites, 
that we are removing those trees in time to open for the 
regular season, so about 50 percent of our developed rec sites 
have hazard trees in them, but these are the most extreme 
conditions, where, like those photos showed where, the--
mobilized equipment and contracts, actually, to remove those 
trees.
    Focus on trails, this is a blowdown patch, again, with the 
trees dying, and this happened to be on a ridge top, where it's 
prone to wind-throw. Notice the snagged tree there, that's 
actually a trail location--the local district mobilized a 
volunteer organization, they came in and spent 3 weeks cutting 
out about a three-quarter mile section of trail. So, a lot of 
huge work, just look at the volume of material that they had to 
go through.
    Another issue that we're turning our efforts on is dealing 
with transportation systems--either roads, trails, or any 
linear facility. This is a motorized trail up in Jackson 
County--if you look at all of these dead trees around it, and 
imagine what--as we saw in the previous photo of the blowdown--
for us to mitigate and keep this facility open, we need to cut 
back at least 100 feet, or at least one and one-half tree 
heights along both sides--it's been a huge job for us to do 
that.
    The Medicine Bow-Routt Forest is in the midst of an 
environmental assessment, looking at all the roads that pass 
through that forest, and trails, and doing clearance for those, 
as far as NEPA.
    But, if you look at some of those acres, as well as the 
miles of those facilities, it's an enormous task. Like the 
prior panel mentioned, last year we treated 15,000 acres on a 
variety of projects. Here's a case where we have--and again, 
this is just one forest of almost 50,000 acres.
    You look at all three national forests, and this is of 
current conditions, and we know the bark beetle's expanding, 
911 miles of trails which would equate to about 38,000 acres, 
almost 3,500 miles of roads, and 82,000 acres--this kind of 
lumps the campgrounds into an acre, as far as that needs 
treatment.
    Of course, the other issues that we're dealing with--I'm 
working with the partners, as far as utility companies, we have 
a variety of transmission lines, which are the high-voltage, 
WAPA, Excel, and Tri-State crossing through the three forests. 
We're working with them to facilitate the ability to remove the 
hazard trees. One of our biggest concerns is dealing with the 
distribution lines of the smaller companies that provide power 
to in-holdings or facilities within the forests. They're 
typically on a very narrow right of way, and those trees being 
so tall that they could fall on those structures.
    Of course, watershed is a big issue, this is of course Lake 
Granby, and the dead hillside there. If it burns, the 
sedimentation the could go into the water storage devices. The 
other issue is the actual infrastructure of the water--either 
municipal watersheds diverting water, or agricultural ditches. 
As all that material starts falling into those infrastructures, 
it's a big job to remove that.
    We have livestock fencing across all the three forests, 
1,000 miles plus. Again, if you remember that picture of that 
blowdown, and you imagine those range permittees trying to 
maintain those fences--again, a huge workload.
    So, as mentioned, some of the items that the forests are 
doing--jointly, of course, the Incident Management Team, which 
is looking across all three for efficiencies. We, of course, 
have seen shifting of funding into those three forests. More 
importantly, the three forests themselves are making those 
projects higher priority, be it timber and fuels projects, but 
also recreation roads, trails, range--all our resource areas 
are focusing on impacts from the bark beetle.
    Of course, we have limited funding, so ranking those by 
priority helps us spend the money in the most efficient way. We 
are looking at a variety of levels of collaboration, of course, 
the State just recently formed an advisory council, but we also 
have regional groups, as far as the Bark Beetle Cooperative, we 
have the Front Range Bark Beetle Working Group, the Medicine 
Bow Forest building a cooperative, but then you drop down to 
county level groups, there's several of those around, primarily 
the two real active ones in Routt County and Summit County. But 
then also, if you're using HFRA and the collaborative group at 
the local project levels.
    So, really, all levels of organization in line with 
collaboration and partnership to figure this issue out. Of 
course, the Incident Management Team is focused on a variety of 
things--communication, education is the primary--helps us with 
the public, and so we've had a lot of workshops, of course 
websites and newspaper and the media.
    Second is mobilizing resources, and that's the one I've 
been really busy with this spring, as we've brought in Colorado 
inmate crews, hotshot crews, volunteers, but also a variety of 
Forest Service folks from across the country to come in and 
help us deal with the increase of projects, and mitigating the 
fallen tree hazard.
    Efficiencies, there's a lot of these, as far as HEFRA, of 
course, we're using that, the Good Neighbor Authority, 
stewardship contracts, we're actually looking at some free use 
authority, where we can give timber away--this benefits the 
public, primarily like in campgrounds, for example. This 
prepping of the timber sales, I mean, we're doing a lot of 
large-scale assessments across all three forests which help 
facilitate the need for process--be it the wildlife, or 
archeological clearance--so there's several benefits we can 
provide to the three forests by working across the landscape.
    Of course, the final and probably most important thing, is 
the public and health safety, but not only for our public well 
store employees that we're looking in that.
    Implementation plan--that is our, sort of, our list of 
projects that we're working on. This is a copy of it, it's 15 
pages long, over 250 projects across the 3 forests, summarized 
in each of the different kinds of categories that is mentioned 
there. Of course, our highest focus area is dealing with 
hazardous fuel treatments, and that's first in the communities, 
as well as in water sheds. Of course, timber salvage is a big 
part of our program. The spring is also there, and there--our 
fourth area is dealing with the falling tree hazard.
    Again, 240 projects scheduled over the next 5 years, 
100,000 acres. This really maps that out--the 2006 and 2007 are 
actual numbers there, as we bumped up--there's these different 
colors, kind of relate to the, kind of the project--you can see 
the red bar is one of the dominant bars, because the fuel 
treatment hazard is one of our priorities. You'll be able to 
see our timber is ramped up, as well, the green bar. We do 
expect the orange bar to ramp up as far as the falling tree 
hazard.
    What this represents is us pushing all of our projects 
forward in the timelines of the forest, as far as approved NEPA 
projects. We have no intention--at least my chair is--that we 
don't want to drop this off. Because we've pulled projects 
forward to ramp up, we'll be backfilling this down in here with 
new projects that are hopefully set by our cooperative and 
partnership relations, as I said, priority projects online for 
planning and filling those out-years.
    So, that's basically the end of my comment. I would say, 
though, one of the other projects we're focused on is the next 
forest, and related--this is a large-scale regeneration of the 
forest, and we're looking at projects that help us improve 
resilience and forest health so we'll have a healthy forest for 
our future generations.
STATEMENT OF CAL WETTSTEIN, ACTING DEPUTY FOREST 
            SUPERVISOR, NATURAL RESOURCE STAFF OFFICER, 
            WHITE RIVER NATIONAL FOREST
    Mr. Wettstein. Good morning, and welcome to Eagle Center, 
this is the heart of the White River National Forest. 
Currently, I'm the acting Deputy Forest Supervisor of the 
forest, normally, I'm the resources and planning staff officer.
    As you've heard, the beetle epidemic is rapidly changing 
the lodgepole pine forest across Colorado, and actually across 
much of the West. Clint has shown you the summary of acres 
infested on the northern Colorado.
    This slide shows our eastern part of the White River 
National Forest. This is Summit County, which is the Dillon 
District, and this is Eagle County where we are right now, 
which is the Holy Cross and Eagle Districts.
    We have about 100,000 acres infested in those two counties 
right now.
    This map shows susceptible lodgepole pine, that's the blue, 
that's mature lodgepole pine in Summit and Eagle Counties, the 
green is susceptible spruce, which we won't talk about today, 
but gives an indication as to the overall amount that we have 
susceptible out there.
    Now, 100,000 acres sounds like a daunting area to deal 
with, but as we start to look at what we can actually work on, 
in there, it narrows done pretty quickly.
    This shows the current infestation of the mountain pine 
beetle as of 2006. One thing to keep in mind as we see these 
maps, this one's 2 years old, and even the maps of these from 
2007--that was--those were trees that turned red in 2007, and 
there have been additional flights since then, so it's even 
bigger than it shows, here.
    You start to narrow it down, and we lay over wilderness 
areas, and we had roadless areas, and then areas with steep 
slopes and unstable soils. For the most part, we won't be doing 
much work in those areas. So, you can see it narrows down where 
we'll do actual treatments. Realistically, we think it will 
probably end up being, at the most, 25 percent of the infested 
areas, in some places, much less.
    One of the consequences of this extensive tree mortality 
will be an increase in the potential for catastrophic fires. 
Now, the potential is bi-modal. There's a current high 
potential for catastrophic fire where we have red needles on 
the trees--it's a lot of fine, dry fuels that can fuel a really 
hot, fast fire.
    But as those red needles fall off, over the next 5 to 10 
years, the fire potential would decrease, but start to increase 
as those dead trees--as Clint has shown--the dead trees will 
start to fall down and create a heavy fuel bed on the forest 
floor. Again, there's another photo of what that will look 
like, this is blowdown, currently, but this is kind of the 
level of fuel loading that you can expect when one of those 
trees hit the ground.
    When those trees go down, you start to see--smaller trees 
will start to grow up around these, and those smaller trees are 
what--would create what we call the ladder fuels that will 
carry fire up into the remaining crowns of large trees. That's 
when we'll get into this next increase in fire potential--
probably three to four decades from now. Those fires will be 
much hotter, much more difficult to control.
    The reason--and I think Clint showed you that slide also--
this is what it takes--this is actually opening a trail through 
some of that blowdown--this is what you visualize the fire crew 
having to do a direct attack on a fire, cutting a fire line 
through that kind of a fuel is extremely hazardous, and 
extremely difficult. This is the kind of situation we're trying 
to avoid, especially in the urban interface.
    As Clint explained, and Rick explained, our top priority 
areas are the urban interface and other infrastructure, such as 
ski areas, this is the area around Dillon Reservoir, the 
Keystone ski area is up in here, Breckenridge is down, just off 
the map here.
    This was a project that we just completed planning on last 
year, it's already got one stewardship contract underway, up in 
this corner of the project area.
    What we looked at in this area are urban interface 
treatment units, which are right along the edges of communities 
and there are some up here in the wilderness, and then some 
other more general forest health treatment units, kind of back 
up those urban interface treatments.
    What we're using to accomplish the work in this area are 
stewardship contracts, elsewhere we're using a whole range of 
tools to do treatments from commercial timber sale to pure fuel 
treatments, to every combination in between. For planning, 
we're using the Healthy Forest Restoration Act, it's what we 
used on this area.
    For implementation, you know, we're using stewardship 
contracts, Good Neighbor grants, using the Wyden Authority, of 
course, employing a lot of partnership opportunities. Wherever 
possible, we've been trying to remove trees as a commercial 
product. In the long run, we know that that's going to help us 
defray the high cost of fuel treatments, and we know that 
treating fuel now will be much cheaper than fighting wildfires 
in the future. Besides just the cost of firefighting, the 
potential for the loss of property is immense.
    So, in order to be as efficient and effective as possible, 
we're using a number of different wildfire and fuel models to 
help us prioritize treatments on these large-scale projects. 
So, on the next few slides, I'll show you some model results 
for this particular area, hopefully they're easy enough to see.
    This shows fire potential before the pine beetle outbreak. 
I'll show you the different kind of fire, surface fire, covers 
most of this area, before the pine beetle outbreak, 83 percent.
    Surface fire is relatively innocuous, easy to control, slow 
moving--we haven't considered it a big problem.
    Now, passive crown fire is still moderately--has a moderate 
rate of spread, it is characterized by torching of individual, 
or groups of, trees. It can look spectacular, but it doesn't 
move fast, and can be controlled by ground forces.
    The really dangerous fires are active crown fires, and 
those are the ones that--where the fire gets into the crowns, 
and the wind-driven events, and are extremely difficult to--to 
control, there cannot be direct engagement of those. It takes 
backing off, and air attack and all of the really expensive 
treatments.
    So, by 2022, without treatments around Dillon Reservoir, 
this is where we can expect an increase in active crown fires. 
You can see, it starts to get into some of these urban 
interface units, and into the communities, a little bit up in 
here.
    With treatments, pretty much, you've eliminated the 
possibility of crown fires right in that immediate interface. 
You can see we've got passive crown fire in these other 
treatment units, and that's kind of a tradeoff that we're 
willing to make. Again, that passive crown fire is slower-
moving, and it's controllable by ground forces. So, we'd still 
be comfortable putting fire crews in to protect these 
neighborhoods in this kind of a situation.
    Now, it really gets interesting by 2057. Without 
treatments, by 2057, about 60 percent of this landscape has a 
high fire potential for active crown fire. You can see it's 
right into a lot of neighborhoods, around Keystone and Frisco.
    With treatments, by then we're pretty confident we'll have 
eliminated passive and active crown fires in the areas, both 
immediate--meaning the adjacent neighborhoods, plus we've got a 
good buffer on some of these other areas outside of those urban 
interface units. It's a much safer and more defensible 
situation, in case of wildfire.
    Now, one thing that you remember is that, here's that other 
75 percent of the landscape that I said we probably won't get 
to. We're still going to have a potential for big fire in those 
areas. It's just going to be a way of life in future decades.
    Let's see--these are just a summary of the acres by 2057, 
those urban interface units--we've reduced from the potential 
50 percent of active crown fire, down to 9 percent. The other 
forest health units from 70 percent down to 3 percent.
    What I want to show you now is a quick video clip. Last, 
what I want to emphasize--and you've heard this several times 
already, the importance of collaboration and partnership. This 
is a clip on an ongoing partnership with the town of Vail, and 
Eagle County, State forest service, and I think the Upper Eagle 
Water Authority is signed on now, and Vail Resorts.
    This particular operation took place in west Vail in 2007, 
2006--just this past fall. It's a helicopter operation, about 
7,000 or 8,000 trees directly in the urban interface. The 
reason we use the helicopter is because that area above west 
Vail is inventory roadless, and it's also got a lot of steep 
and unstable soils. A helicopter was really the only option.
    For this operation, Eagle County contributed about 
$250,000, the town of Vail, about $250,000 and the Forest 
Service about $350,000. But it does show, this is the only way 
to get a lot of these projects done--it's a lot of partnership 
and cooperation.
    So, that concludes my testimony.
    Senator Allard. Thank you.
    Mr. Casamassa.
STATEMENT OF GLENN CASAMASSA, FOREST SUPERVISOR, 
            ARAPAHO-ROOSEVELT NATIONAL FOREST, FORT 
            COLLINS, COLORADO
    Mr. Casamassa. Thank you, Senator. I appreciate the 
opportunity to appear before you today to discuss some of the 
effects of the mountain pine beetle epidemic, and some actions 
that we're taking on the Arapaho-Roosevelt National Forest. My 
name is Glenn Casamassa, I'm the forest supervisor of the 
Arapaho-Roosevelt National Forest, and the Pawnee National 
Grasslands, and our headquarters is in Fort Collins, Colorado.
    We've been addressing this mountain pine beetle outbreak 
since about 2001, with the goal of reducing the impacts of 
potential wildfire on the communities and watersheds.
    Our focus has been on larger-scale treatments to remove 
dead and dying trees, reduce hazardous fuels, remove hazard 
trees, and regenerate forest stands.
    As the epidemic has progressed, local communities become 
more aware and concerned about the condition of the surrounding 
forests. We have been working closely with local communities 
directly affected by the bark beetle infestations in Grand, 
Larimer, Boulder, Gilpin, and Clear Creek Counties.
    In the past, some of our local communities expressed 
concern about actively managing the forests--that really has 
changed. People are very concerned about the dead trees 
surrounding their communities, and especially about the ones in 
their back yards. Clearly, as been talked about previously, the 
work with the Colorado Bark Beetle Cooperative has been really 
instrumental to the success we've had in bringing communities 
and interests together to identify values at risk, and 
prioritize treatments across the entire impacted landscape.
    You'll find that most communities are supportive of the 
tools that we're using in order to turn the forest to a 
healthier condition. Along with our active timber sales, I just 
wanted to go over just several of the projects that we're 
working on.
    This one here is the Arapaho National Recreation Area 
Stewardship Project. We began planning that in the early 2000s 
and in around Grand Lake, Colorado our objective was to remove 
hazardous fuels that reduce the risk of communities within the 
WUI, and also to provide adjacent landowners a more effective 
defensible space. This project clearly was planned with a 
considerable level of public involvement and discussions with 
local elected officials, input from the Colorado State Forest 
Service, and the Grand County Department of Natural Resources. 
The decision was made in 2004 to treat about 2,000 acres to 
accomplish the objectives.
    Work on the project began in 2006, the project combined 
commercial timber harvest with noncommercial fuels reductions 
treatments totaling about 1,758 acres.
    Another project that we're implementing presently is the 
Green Ridge Good Neighbor Project. It's a project to treat 
about 3--300 acres along the forest boundary, adjacent to a 
highly develop WUI in the Green Ridge area of the Arapaho 
National Recreation Area.
    Treatment acres were designed to be harvested in 
cooperation with private landowners, given that the only access 
to the treatment was through the private property. Essentially, 
accomplishing this effort was to work with the Colorado State 
Forest Service, who coordinated the private landowners to 
secure proper access, and administer the contract.
    In 2007, the Green Ridge Good Neighbor Agreement was 
finalized with the Colorado State Forest Service, a contract 
was awarded and worked again. Currently, the project is nearly 
complete, with only about 14 acres left to treat during the 
summer of 2008.
    We're also partnering with ski area companies to identify 
and recommend treatment methods on forest lands within the--our 
forest ski areas affected by the outbreak. Winter Park Resort, 
located on the Sulphur Ranger District is treating the effects 
of the mountain pine beetle since about 2004. They have taken a 
number of actions--cutting down trees, peeling trees, moving 
trees by helicopter, and doing some preventative spraying in 
their high-valued areas.
    The ski area operates between an area covering about 4,000 
acres under their special-use permit, of which about 1,000 
acres is considered mature lodgepole pine--90 percent of the 
mature lodgepole pine is impacted by the mountain pine beetle. 
They've invested considerably in the efforts, to date, to curb 
the effects of mountain pine beetles.
    Then, finally, with our developed recreation sites--we're 
alarmed by the magnitude of the safety threat posed by fallen 
trees, and clearly our most important concern is the risk of 
dead trees falling, hazardous trees falling at our developed 
rec sites.
    The national forest affected by the beetle outbreak--we're 
focusing in on treating areas where people really recreate. 
This summer, we're removing hazard trees from about 20 
different campgrounds, and we expect only about six campgrounds 
will have delayed openings. It appears that the public really 
understands the need to take this actions, and they want to 
recreate in safe areas.
    So, in conclusion, we're committed to working closely with 
communities to prioritize areas to treat. We'll continue to use 
timber sales as a tool to treat larger acreages, as well as 
engage in multiple efforts with partners, through the use of a 
variety of forest management tools. We, along with the other 
forests, are working as effectively and efficiently as we can 
to meet our goal of reducing the impact of the mountain pine 
beetle, to reduce the impact on communities and watersheds.
    That concludes my statement, I'd be happy to answer any 
questions you might have.
    Senator Allard. Thank you for your testimony.
    I'm going to put the first question to Clint Kyhl, and we 
had to use you very much where the Hayman fire that we had 
here, I mentioned in my opening remarks, the largest fire that 
we've had in Colorado history.
    It seems to me, that under the conditions that we have now, 
it's quite possible that we could end up with a fire that's 
much larger than even the Hayman fire. Are you able to prepare 
for such an event?
    Mr. Kyhl. We are, and it's mostly with our partners, 
looking at CWPPs around the communities at risk, or where we 
have high values at risk. We are working in support to the 
counties, as far as emergency management planning efforts. Some 
of the work that we're doing as far as our roadside hazard 
clearing will help us provide some sort of fuel break, with--as 
we clear road sides of those hazard fallen trees. We'll also 
see the benefit of a fuel--or at least a defensible line that 
we could mobilize against a large fire.
    Senator Allard. So, the fuel break, like what you've talked 
about by the Dillon Reservoir--that still works, even though 
you've got all of that infestation? That--I got the impression 
in the testimony it would be much, much more difficult, at 
best.
    Mr. Kyhl. Well, you know, at a large fire like Hayman, you 
know, we really are falling back to point protection at that 
point, you know, the--anything less than those megafires, at 
least provide some safe ground for us to put resources to help 
fight a larger fire.
    The other thing is, we do timber salvage and the 
stewardship contracts out on landscapes, those also provide 
fuel breaks for us. As far as the way we structure and design 
those timber salvage, and also provide us some fuel breaks, 
so--in the, it is a county by county approach with the sheriff, 
and as well as the State forest service involved with that 
planning, so it is a group effort to look at the big picture, 
as far as a large fire.
    Senator Allard. How is your readiness from the air? Do you, 
you're pretty well, we get our planes shifted around from place 
to place. I know, in California, we had a lot them shifted out.
    Now, do we--when you see all of the, they tying force, does 
that cause you to bring more air support, I mean, closer to 
those affected forests? Or, do you not have the resources to do 
that?
    Mr. Kyhl. Well, I think safety drives our decisions on the 
kind of resources we'll use with the amount of dead snags out 
on the landscape now, we're concerned about what kind of 
initial attack resources we've put on the ground. We are 
developing guidelines for that, as far as if there's excessive 
wind conditions, or frontal passages, we may not want to have 
initial attack crews right out there in those forests with the 
dead trees.
    So exactly--bringing air resources or other kind of 
mechanized equipment at--operating like a dozer, for example, 
can be safe and still provide some sort of a suppression tactic 
against the fire.
    Senator Allard. So, you're continuing to develop some--with 
the fuel breaks and that type of thing--your management?
    Mr. Kyhl. Exactly. We're, you know, looking at a landscape 
scale now, with all the dead trees, and where to place our 
limited resources where we can provide the best benefit to our 
public and our partners, and again the Routt community, soon to 
be our highest priority. But we are looking at that 
strategically at a larger landscape and where we can provide 
some sort of fuel breaks, where we can do it.
    Senator Allard. Now, are we getting some resources pre-
positioned in the Colorado/Wyoming areas, where we're having 
such a high loss of our lodgepole pine?
    Mr. Kyhl. Well, I think the weather conditions will help us 
make that decision, if we do start to see humidities, and we 
were lucky last year, frankly, because we had a real mild 
winter, and--or mild as far as the heat and good moisture, so--
so yeah, I think you know, like all our Federal, or all 
firefighting resources, we do have the ability to pre-position 
when conditions warrant, so if we do see drying conditions in 
Colorado, we should bring resources closer.
    Senator Allard. Well, some place like Parks, Colorado, I 
think Steamboat Springs reportedly had record amount of 
snowfall, that's a fair amount of snowfall, I think, in 
southern Wyoming, probably not as much as we did in northern 
Colorado, from what I'm able to ascertain.
    Mr. Kyhl. Yeah, some of our----
    Senator Allard. So, are you considering the fire--
possibility of fire events in, say, the Granby area, Lake 
Dillon area, Colorado, Wyoming--you've got a lot of recreation 
around the Medicine Bow area there. Are you going to be 
considering that as a high--high area? High-risk area?
    Mr. Kyhl. Well, the snow pack, we've actually had some 
conditions that are--we've had a high snow pack, winter 
moisture years, we've actually had really high fire occurrence 
because the increase of vegetation, as far as their fire fuels 
growing the following summer. So, we are monitoring that.
    But it--yeah, where our highest values are at risk, as far 
as the recreation areas, the ski areas, what Cal had talked 
about--those were all critical areas.
    Like our list shows, we have a lot of priorities, just 
trying to figure out which has the highest need at the time.
    Senator Allard. If we needed a plane, say, in Rocky 
Mountain National Park for a forest, I think, yeah, you could 
do that.
    For example--now, I know this is part, but you're all 
rounded, in that area, but--are there planes available that you 
could get in there in just a matter of, less than an hour?
    Mr. Kyhl. There are several tanker bases in Colorado that 
we could mobilize our limited tanker resources in there. Of 
course, helicopters--we mobilized some heavy helicopters into 
Colorado for this coming year, to sort of offset the----
    Senator Allard. So, you're feeling comfortable?
    Mr. Kyhl. We're never comfortable.
    As much as we can, but, you know, large fires as we've seen 
across the West the last 5 years----
    Senator Allard. Well, I'm very uncomfortable.
    Mr. Kyhl. I never wanted to see----
    Senator Allard. I worry a lot.
    Mr. Kyhl. Yeah.
    Senator Allard. I would hope that you would worry, too.
    You probably don't have control over that, but I just 
wanted to see if you were comfortable with putting resources we 
might have to pull in to a fire, I'd see--just when it happens 
I would expect it to be almost explosive in nature, when that 
happens.
    Mr. Kyhl. Yeah. We're definitely concerned about it, and 
we're monitoring that.
    Senator Allard. Now, on the market for the beetle-killed 
trees, somebody mentioned you were putting out contracts that 
might have been, I don't know, maybe Glenn, you'd be one to 
answer this. You're putting out contracts for loggers to come 
in and clear this thing out. Are you having less success in 
loggers coming in and being willing to pay the price you're 
asking?
    Mr. Casamassa. Yes.
    Senator Allard. For the lumber?
    Mr. Casamassa. Yes. We--you know, at, for the most part, 
everything that we've been offering has been selling, 
particularly around the Grand County area.
    Senator Allard. Because I was--I've had a couple of timber 
men say, well, they're expecting this, they pay too much to 
timber their land, we--the way we get that cleared, the price 
that they're wanting for that, when you consider the--
particularly now, with the cost of diesel, and everything else. 
Now, are you prepared to adjust your asking price when you 
market that timber?
    Considering that it's timber that's blue wood, and we don't 
have much of a market there, in fact, it's adversely looked 
at--are you trying to stay within the market conditions, so you 
don't run into a situation where timber men just won't be able 
to pay it?
    Mr. Casamassa. That's certainly, it is a concern, and 
we'll--you know, we're looking at when we offer additional 
sales and appraise the values of those sales? It would be based 
on, perhaps, some market adjustments.
    Senator Allard. Who does the appraisal?
    Mr. Casamassa. We do, at the local level. We work with--we 
have a contracting officer out of Laramie that we work in 
conjunction with, in terms of----
    Senator Allard. Sometimes, you know, appraisals are built 
on--whether it's houses or businesses or whatever--it's built 
on past sales or past demand. You know, I can see where the 
cost of diesel fuel, for example, can have a dramatic impact on 
demand, in a matter of 6 months. How do you determine?
    Mr. Casamassa. Well, it--in all likelihood, what would 
happen is, is that based on the different market conditions 
that we would adjust the prices accordingly, and perhaps some 
of the sales that you mentioned--blue wood or salvage sales--
would be offered at a minimum rate.
    Senator Allard. Are you--would you be prepared at some 
point to say, well, just get it cleared and take what profits 
you can, and we'll move on?
    Mr. Casamassa. We still have to work through, you know, in 
terms of offering timber sales, we still have to work through 
our appraisal process, calculate a bid price, and then offer 
that up, so----
    Senator Allard. Do you see where you might get to the point 
where the appraisal process says there's no value there, so 
just get in there and clear it?
    Mr. Casamassa. Then, in all likelihood, then, it wouldn't 
be a timber sales if there was no value associated with a 
particular timber sale offer.
    Senator Allard. Now, does that disrupt your forest health 
efforts?
    Mr. Casamassa. I would say that it could, potentially----
    Senator Allard. Do that.
    Mr. Casamassa [continuing]. Disrupt our----
    Senator Allard. Yeah.
    Mr. Casamassa [continuing]. Our efforts.
    Senator Allard. You think that needs some evaluation?
    Mr. Casamassa. Not at this point, no.
    Senator Allard. So, if there's no value there, you don't 
think you should practice any forest health management 
procedures?
    Mr. Casamassa. Well, certainly we would use a different 
tool at that time, then, in all likelihood, it would be a 
service----
    Senator Allard. Could you do a prescription burn? Is that 
what you would do?
    Mr. Casamassa. Well, we could do some service contracts 
where we would then--then have to treat those sales, and--treat 
those areas and then pay for that, you know, associated with--
--
    Senator Allard. I see.
    Mr. Casamassa [continuing]. With no value. Or, another tool 
that we could use is, to a degree, some prescribed burning.
    Senator Allard. You're prepared to do that? You have some 
financial resources to do that? Or do you think you need more 
financial resources, where you would have to pay to clear 
trees?
    Mr. Casamassa. We are doing, in combination with some--with 
the timber sale offerings, we do have a number of service 
contracts that we're putting out, as well. Where we're paying 
for the removal of, primarily, wood fiber off the landscape 
we're treating. So, we're doing both.
    Senator Allard. Okay.
    Now, on the recreational impacts, we--the forest of 
Colorado, with their campground closings, I saw an article in 
USAToday, and do you anticipate any more closures in the 
recreational areas of the pine beetle infestation in Wyoming 
and Colorado, and I don't know who's prepared to answer that.
    Mr. Casamassa. I guess we can all----
    Senator Allard. Okay.
    Mr. Casamassa. I'll answer it.
    Certainly on the Arapaho-Roosevelt National Forest--as I 
had made mention--we are taking out hazard trees within our 
campgrounds. We have some delays that would occur, but we would 
not anticipate any closures at this time.
    Senator Allard. Okay.
    Mr. Kyhl. Across the three forests, like Glenn mentioned, 
we are working hard to get all of them open as early as we can. 
The snow pack is actually hurting us by not allowing us to get 
equipment and machines in there quick.
    We are plowing some roads open, and we are bringing in a 
variety of crews, including Colorado inmate crews, some of our 
hotshot crews, before they get called off on fires. So, we have 
the resources, basically, we're waiting for the snow to clear 
for us.
    Now, granted, the bark beetles continue to expand. We had 
it in 100 campgrounds, we'll probably see it continue to grow, 
and of course, using our resources to try to deal with it in 
the fall so we can open in the spring is kind of a shift.
    Senator Allard. Yes.
    Mr. Wettstein. Yeah, on the White River, we've either 
already treated campgrounds, or they're under contract or 
they're--they've gone through the planning phase, they're all 
accounted for, and work's underway.
    Senator Allard. We get a Memorial Day break, that's--I 
think that kind of sets off the summer in most cases. So, you 
feel that local communities that have had to rely on these 
campgrounds can pretty much expect a flourishing business 
that's centered around Memorial Day, and that would stem from 
the campground activity? You don't see any real economic 
downturns here?
    Mr. Kyhl. There's going to be a few that will need some 
more time to get cleared, but that's only a small--I'd say, 5 
percent.
    Senator Allard. Yeah, like you say, we have a lot of snow 
that may not be cleared in time. Particularly if it's on the 
sunny side of the--or the northern side of the mountain, where 
they don't get a lot of direct sun.
    Mr. Wettstein. Yeah, we're really shooting to get--Fourth 
of July weekend is--even for our hardest sites, to have them 
open by that weekend.
    Senator Allard. So, are you going to have, for those that 
are being reported as closed now, do you think you're going to 
have those open for Memorial Day? Or are they going to--or have 
they been closed for a long period of time?
    Mr. Kyhl. The ones that we have on the list to be closed 
are the ones that it's going to take us a field season--or at 
least several months--to get it cleared, because it's such a--
5,000 or 10,000 trees to be removed kind of project, so----
    Senator Allard. Yes.
    Mr. Kyhl. But again, that's just a small number, the rest 
of them we will have----
    Senator Allard. You have the resources to meet your needs 
there, you think? In the three--in the three forests that you 
have under your authority?
    Mr. Kyhl. Yes, we are--the region did mobilize financial 
resources to the three forests to deal with this, and so we are 
putting that--those funding for resources.
    Senator Allard. Okay, let me just look here, briefly.
    Maybe you'd be best to address this, Cal, I think we have--
what about municipal water supplies? You know, what we've had, 
we've had so much silt and everything getting down into the 
lake there, from--the Hayman fire mostly affected Denver's 
supply. Could you describe the potential for damage to water 
supplies as the landscape becomes overstocked with dying trees?
    Mr. Wettstein. Sure. It is one of our highest priorities. 
As Rick showed you, the importance of Colorado headwaters for a 
lot of municipal water supplies. As we get in and prioritize 
projects, and specifically, the Dillon Reservoir, that was one 
of the high priorities--one of the reasons we're doing 
treatments around that, besides just the urban interface 
protection.
    Senator Allard. So, you're doing thinning treatments around 
the lake?
    Mr. Wettstein. Where we can. Basically, we're not thinning 
at this point. A lot of those treatments are going to be clear 
cuts, because we've got close to complete mortality in there.
    Senator Allard. Okay.
    Mr. Wettstein. But the--yeah, watershed protection is one 
of the critical priorities for us.
    Senator Allard. Of course, I'm trying to think back, I 
don't see any terrain--I'm trying to think of terrain around 
the Dillon Reservoir that would, maybe, prevent you from 
getting equipment in there, but you could, I suppose--I'm 
thinking back--that most of that's terrain that you'd get to--
--
    Mr. Wettstein. Some, yes--most. Yes. So, it--a lot of that 
then comes down to----
    Senator Allard. Have you started that work yet? Around 
Dillon?
    Mr. Wettstein. Oh yeah, yes. County Commons in Frisco is 
completed, it was a stewardship sale. We've got another 
stewardship contract that we awarded last fall, it's been 
working--they worked most of the fall and they're back in, now. 
We're about to award another contract this summer, for another 
third of that project, around the Keystone area.
    Those stewardship sales--back to your questions about the 
timber values and appraisal issues--those timber sales--they're 
stewardship contracts, they all involve a lot of commercial 
wood. So, we're using the value of that wood to offset the cost 
of those fuel treatments. So, that's----
    Senator Allard. Yeah, I understand that, but it's one of 
the complaints I'm getting--there's not much value to the wood, 
that the cost of moving the wood out of there----
    Mr. Wettstein. Well, right--and that's why in some of these 
stewardship sales, or stewardship contracts, we're actually 
paying those contractors. The value of the wood does not----
    Senator Allard. Justify.
    Mr. Wettstein [continuing]. Justify the fuel.
    Senator Allard. The expenses.
    Mr. Wettstein. So----
    Senator Allard. Yes.
    Mr. Wettstein. Yes. We're ending up spending money on it.
    Senator Allard. You know, I think with, well, look what 
happened, with what's happened with our economy, it's just that 
that bears really close monitoring and watching very closely. I 
filled up my pickup the other day and it's $99. It's a diesel. 
So, I can imagine was some of that big, heavy diesel machinery 
is going to cost, when we're running it per hour, it can get 
expensive.
    Okay. Now are you working with local utilities on, like, in 
the Dillon Reservoir, for example, you've got to work with the 
Denver Water Board, I suspect----
    Mr. Wettstein. Right.
    Senator Allard. Everything else. Do you feel like you've 
got an open line of communication--understand where you're 
going, and--have they expressed any concerns to you?
    Mr. Wettstein. They're very involved, and Denver Water is 
very involved. Power line utility companies have been at the 
table with us, so we're getting good cooperation with all of 
the parties.
    Senator Allard. What can we do to make things better as far 
as working with the utilities, and working with power lines--is 
there anything that we can do, at the Federal level to make 
things better for you? Can you use more money?
    Mr. Kyhl. I'm sure the utility companies could say yes.
    A lot of our work has been focused on efficiencies to allow 
them to do the work. A lot of them want to do stuff, they have 
their own resources, and under some of those--most of those 
permitting facilities on the forests, they do carry more of the 
responsibility versus the public.
    Where we come in is to try to get them expedited or at 
least as fast as we can, get them approval so that they can 
remove those hazards--especially the power lines. They have 
certain--front range of Colorado and the grid across the west, 
so we are working with them under agreements, MOUs, other ways.
    Senator Allard. Do you think the permitting process is sort 
of frustrating because it's slow? Or do you think it's okay? 
Or, what's your view of the permitting process?
    Mr. Kyhl. Well, our NEPA process is----
    Senator Allard. Cumbersome?
    I don't mean to put words into your mouth.
    Mr. Kyhl. Well, I think those are all good rules to looks 
at, and impacts to the environment, and I can't say those 
aren't appropriate. You know, where we can be efficient in 
dealing with those is where we're trying to focus our 
resources.
    Like the power lines--rather than having the power line 
come in and deal with one district, and then they jump to 
another forest, we've--you know, the efficiency of the 
management team is that we're looking across all three forests, 
giving them one permit, so they don't have to go door to door, 
getting that permission.
    Senator Allard. Well, that's a good news story.
    Mr. Kyhl. Yes.
    Senator Allard. Yes.
    Mr. Kyhl. So, those kind of things is a--but yeah, they're 
concerned about fire, as well, so it's not only the hazard tree 
falling within their right of way corridor, but they also worry 
about large fires taking out the line. That's a little more 
complex, because then they're going off the right of way and 
looking at treatments, so--again, hundreds of miles. So it 
spans a huge landscape for them.
    Senator Allard. Yes, I know some of them are requiring 120 
offsets on each side of the power line, or looking at that as 
their--as a requirement. That has to move them off of their 
current right of way, onto forest property.
    Mr. Kyhl. Sure does. Especially if they're--where the line 
is located, if it's uphill from the dead trees and the dead 
wood, it's going to bring heavy smoke, and which can bring down 
their lines just as well as the fire----
    Senator Allard. It is a problem, yes.
    Mr. Kyhl [continuing]. Itself, so----
    Water infrastructure is another important--working with 
them to mitigate the sediment potential in those intakes and--
--
    Senator Allard. So, do you, then--what do you do around 
those intakes? Are you clearing out the older trees and putting 
something in there to kind of hold the soil?
    Mr. Kyhl. Well, the utilities that the water providers are 
looking at--designing a debris flow, catchments, the kind--like 
after the Hayman fire they, it was almost too late, by the time 
they got in there----
    Senator Allard. Yes.
    Mr. Kyhl [continuing]. Rains came and flooded with debris 
and sediment. So, if there's some structures they can put at 
the inlet of their impoundments that can filter out those 
things----
    Senator Allard. Yes.
    Mr. Kyhl [continuing]. A kind of preventative approach. 
We're looking at ways to start the permitting process in that, 
so we can get ahead of the curve, in case there is a large 
fire.
    Senator Allard. Well, I guess if we have a wilderness area 
designation where you can't move a CAT or something in there, 
you're really out of luck, aren't you? Right now?
    Mr. Kyhl. Yeah. Where the water--yeah, that's--that's an 
issue.
    Senator Allard. Okay, that's all the questions I have. 
Thank you.
    We're ready for the third panel.
    Okay, on the third panel we have Nancy Fishering, vice 
president of the Colorado Timber Industry Association and we 
have Jim Ignatius, Teller County Commissioner, and then we have 
Peter Runyon, thank you.
    Thank you all for being here, and I'm looking forward to 
hearing what all of you have to say--who wants to start off?
    Nancy, do you want to go first?
STATEMENT OF NANCY FISHERING, VICE PRESIDENT, COLORADO 
            TIMBER INDUSTRY ASSOCIATION AND CONSULTANT 
            FOR INTERMOUNTAIN RESOURCES
    Ms. Fishering. I'd be happy to.
    Senator Allard. Give the industry perspective, here?
    Ms. Fishering. You bet.
    First, thank you for inviting us to testify, and I will be 
speaking both for the largest sawmill remaining in Colorado 
that's a conifer sawmill, as well as the membership of the 
Colorado Timber Industry, that's 136 members, statewide.
    I'd like to begin by thanking the Forest Service for 
setting the stage so well on what some of the challenges are.
    When I look at, from the perspective of the industry, 
however, I look at it Colorado-wide--and we have been 
increasing our efforts in the forest health arena, as opposed 
to what we used to call green timber sales, since 2002, the 
year of the fires that we've mentioned--you mentioned Hayman--
but that year we had over 2,000 fires that affected over 
500,000 acres throughout the State of Colorado.
    You've heard the other numbers on the mountain pine beetle, 
but what we also have to keep in context, I believe, in 
Colorado, is what's happening elsewhere. We've got 98,000 acres 
of spruce, some of that was up in--by the Steamboat area. We 
also have a big outbreak down by Wolf Creek Pass in the 
southern part of the State.
    We had 350,000 acres of sub-alpine fir decline, where the 
fir that's interspersed within the spruces died. We now have a 
current new problem, called the aspen decline, and we have 
334,000 acres of aspen decline. We have many, many other acres 
affected by various defoliators, ips, engravers, budworms, et 
cetera. So, it's not the only issue that we have in Colorado. 
For our out-of-State guests, I'd like to provide some context.
    We have seen an increase in timber and vegetation 
management over the past several years, you saw several charts. 
Prior to that, though, let me just give you the history going 
right into 2002, when our forest health issues emerged.
    Saw timber from the national forest--largely linked to 
budgets--declined 82 percent from 1989 to the year 2000; 2000 
was our low point, when we had--some of the charts before were 
in CCF, I do it in MBF--but in 2001, we went down to a low of 
20 million board feet provided through the Federal Timber Sale 
Program off of est. Two thousand two, ironically, it was the 
end of three of our largest mills in Colorado, closed, in 2001 
and 2002, simply from a supply--and a budget--related issues. 
As well as, there's some national market issues that happen at 
all times, but national set budgets are a big part of our 
stability.
    Only one large sawmill remains in Colorado, that does 
over--we do a 40--the sawmill in Montrose--does about 40 
million board feet a year. We have many--some people would have 
been alarmed to hear that we're the only sawmill--there's a lot 
of mom and pops, a lot of them that do 1, 2 million board feet; 
we have aspen mills. Seventy-five percent of the 
infrastructure, however, is in southwest Colorado, because this 
part of the State, where the mountain pine beetle was, has 
declined in terms of industry over the years.
    So, that's just kind of the context of where industry is. 
But, I would like to say that we think we've stepped up to the 
plate. We increased our treatments on the Arapaho, which is 
Glenn Casamassa's territory, by 99 percent. We only treated 200 
acres in 2004, and last year we treated over 20,000 acres.
    We're doing treatments on both private and Federal. Oddly 
enough, we don't have a lot of private land in Colorado. That's 
somewhat different for out-of-State areas, because in other 
areas, they have Bureau of Land Management (BLM) land, they 
have State land, they have a lot of private--but we have a 
considerable amount of our forested acres--over 75 percent--is 
on national forest. So, that's a key part of any kind of supply 
issue for our industry.
    We have raised the hazardous fuel prescriptions--you'll 
find loggers doing almost any of those treatments. Some of them 
are just paid service contracts, some of them are still being 
paid to do commercial sales, which pays for treating 
campgrounds and that type of thing. Just as a result of the 
mountain pine beetle, our sawmills and loggers--I inventoried 
them last year--they invested over $5 million in increased 
capacity, just since the mountain pine beetle began.
    The partnership response is amazing. Because, for so long 
in the timber industry, we were the ones trying to convince the 
public they needed us, and it has been a huge response from 
community leaders from every walk of life--the environmental 
community, hunters, recreationists--everyone stepped to the 
front to give you the social license that was referred to by 
both Rick Cables and Mark Rey.
    Our local governments--they'll speak for themselves--but 
they spent $2.3 million last year in local tax dollars and 
treatment areas around their communities, and the jurisdictions 
that surround Eagle.
    The public outreach and education--if the timber industry 
goes out there and says, ``We need you to cut trees,'' they're 
not going to listen to us. It took the community to step up to 
the plate, to get that social license, so I'd like to recognize 
them.
    State legislature is something that we didn't talk about 
much today, but they've been a huge player for us, and a big 
partner. We also couldn't do it--one of the partnerships was 
mentioned briefly, but they're all collaboratives, were the 
community wildfire protection Plans. For Senator Feinstein, we 
actually sent a group out to California, to look at San 
Bernardino, to see how did they deal with it? How did they do 
their emergency response?
    So, we try not to reinvent the wheel. We have great ideas, 
we have great partners, but I still believe we have funding 
issues.
    I list--very briefly, I'm not going to go into it--the 2008 
State legislature passed eight bills to try to address this on 
their side. So, we're not just coming to the Federal Government 
saying, ``We need money, our hands are out.'' The State of 
Colorado stepped up, big time. They've done resolutions; 
they've got an interim committee set up to study more of the 
wildland urban interface issues.
    You talked specifically about the watersheds--there's a 
very innovative bill that, when my industry nationwide--I'm 
part of national groups of Federal timber purchasers--when they 
saw this, they go, ``Wow, how inventive is this?'' But S. 221 
is an authority for the Denver Water Boards to be able to 
bond--to be able to bring in bonding money and create their own 
forest restoration--either preventative, around the watersheds, 
or it can be used for mitigation after a fire--but that's where 
the locals are putting money on the plate themselves, to 
partner with the Forest Service.
    The other thing you talked about--some of the use of the 
blue stained wood--there's a bill that passed this year that's 
going to give us State tax exemption, if you use blue stained 
wood.
    So, every level of government and the community are 
stepping up to try to get things done. Which is why I think, 
your part--in making sure we have adequate money coming from 
the Federal budget, to make sure our national forest partners 
have the money--I think it's key.
    So, then I get to my bed of concerns. Going into the 2008 
budget--and I look at, and we mentioned that there's some 17 
line items that we use to fund forests and forest health 
projects, vegetation treatments--the one that the timber 
industry, the folks that are doing the--buying the big 
equipment, the de-limbers, and the trucks and the extra 
equipment in the sawmills--we have to look at what is the NFTM, 
what the national forest management line item.
    Last year, after going into--after all of this partnership, 
after all of this documentation of the issue, and the 
challenges being faced in the State of Colorado--Region 2 
looked at a 31.6 percent cut in NFTM. That's a huge wakeup call 
for industry, going, ``What is going to happen to us?'' We saw 
what happened to our budgets, going into 2001. We saw it closed 
down the industry. We look at that key line item again, and 
we're going, ``Thirty-one point six percent cut?'' We were 
shocked.
    We know a lot of the answers. Part of it was funding log 
land fire; part of it was funding the northwest forest Plan. 
But we feel like there was absolutely nothing in any--either at 
the Washington office or the Congressional level--that gives an 
allocation for catastrophic defense. It just doesn't seem to be 
a priority at that front end.
    Now, I talk about the 31 percent going in, but I have to 
say that's not where we ended up. We'd like to thank you--and 
our congressional delegation who supported you--for coming up 
with the extra $12 million. Some of it, as we mentioned, isn't 
timber management dollars. Some of it got reprogrammed to 
timber management dollars, some of them were grants. But, our 
bottom line is, after all of the voodoo that happens in the 
Washington office--and I don't know how all of that happens--
the cut at the end of the year, by March--and that budget 
doesn't come out until March, halfway through the fiscal year--
was an 8 percent cut. For an area that has met their targets, 
reduced their unit costs, have documented our challenges and 
our issues, and it's very concerning for us, from industry, to 
see a budget cut coming in the area that's our bread and 
butter.
    We think it's our survival that that doesn't continue to 
happen--you can die from one big cut, or a lot of little cuts. 
So we're going to be watching that very, very carefully. We 
know that there's 100,000 acres ready for next year, but that 
was a lot of money that you brought last year. We got it again 
this year, but it's not part of that stable thread that we see 
in the budget process, from Washington. We see reduced budgets 
in some of these line items as being a reduced timber supply 
that helps us--those are the numbers we take to the bank. Those 
are the numbers that we're getting the loans to buy the new 
equipment or the capital expansions.
    We'd also like to remind people that region 2 is already 
one of the lowest-funded regions in the entire country. So, 
when you give us a budget cut, I think it hurts us more than it 
hurts other areas.
    I will take your time to go through a, kind of, a silly 
illustration. But I just took it against the number of 
employees that different regions have in the country. Region 2, 
for example, we have 1,964 employees. If we had a 31.6 percent 
cut, we would lose 620, and that would leave us with 1,300 
employees, to manage 22 million acres.
    Region 6 is a very large budget region. They got a--
they're----
    Senator Allard. Where is region 6?
    Ms. Fishering. Pacific Northwest.
    Senator Allard. I assumed it was, but I just wanted to get 
it on the record.
    Ms. Fishering. Sorry. My industry, folks, I have to say 
that they know as well as I know, that region 2 is one of the 
under funded regions in the country.
    But, if you did the same 31 percent cut there, they would 
still have double the number of people to manage their 24 
million acres of National Forest.
    So, I just--Colorado, and region 2, is unique. We're 
already in a disadvantage, and I don't see any effort at the 
national level, you know, congressional. We don't have a lot of 
congressional delegates, and I think sometimes that's why, 
maybe it isn't weighted as much as other States.
    I'd also like to mention that most of what's left in 
Colorado--whether it's loggers, whether it's the truck drivers, 
whether it's the sawmills--are family owned. We don't have this 
multi-national, big deep pocketed timber industry in Colorado. 
So, I don't ever like to be compared to region 6, because we're 
totally different in Colorado.
    So, I just--those are the kind of folks that they're 
putting everything at risk. We have one of our other members, 
here, Forest Energy of Colorado--they're one of the pellet 
groups, that are trying to put in pellets--but every one of us 
are challenged to come up with capital for expansion.
    We're vulnerable, at this point, you mentioned the markets, 
you mentioned diesel fuels--those are huge on the horizon right 
now. But we believe we're an asset in Colorado--and to the 
country, actually, because a healthy forest industry gives you 
a cost-effective tool to do the expensive WUI treatments, to do 
some of the expensive hazard tree removal. Our guys are gearing 
up to do almost any kind of project you can throw at them; 
they're ready to do it.
    We don't believe we come with just--saying we have issues. 
We believe have some solutions. We very much like the House of 
Representatives bill 5541, which is the FLAME bill, which would 
put aside an emergency pot of money to kind of take some of the 
firefighting funds out of the everyday budget of the Forest 
Service. We think that would help, somewhat, as long as that 
money was kept within the Forest Service and didn't end up 
going somewhere else in the USDA.
    We believe that there maybe could be a congressional 
process to recognize catastrophic events, and get funding for 
them. Katrina--when they had the Hurricane Katrina, extra money 
went to Katrina. We have our own Katrina going. Senator Salazar 
calls this ``the Katrina of the West.'' We didn't get any 
special appropriations, like other areas have.
    We believe that with--even within constrained budgets, we'd 
like to see some stable forest management along that line item.
    One of the things we talked a lot about today was 
stewardship contracting. Stewardship contracting is--I think 
we've been successful in Colorado. They mentioned 158 
contracts, but we believe the cancellation of the liability 
reserves is key to expand that stewardship theme. It's that 
requirement to have a pot of money to reimburse if something 
happens in the middle of a contract--it's a huge hurdle, 
because it makes the Forest Service keep money on the table 
that we'd rather see being used in treatment.
    So, we believe--not just Colorado, this is--every purchaser 
I know in the country is concerned about that issue.
    Again, we talked about the CAD, Category 10. We saw that go 
away as a tool for a lot of the quick removal kind of things; 
to be able to use for stewardship contract and some small 
timber sale. A lot of people said that stopped logging, it 
really is more of that service contract, small activity, to run 
in and do a hazardous fuel removal, and that's been stopped 
under that 9th Circuit Court.
    The last thing is, some of your comments--you talked about, 
are you paying attention to the market? Are you paying 
attention to diesel? We believe--and I'm not sure that this 
really is something the Appropriations Committee could do, but 
we believe short-term contract relief to the purchasers--
because some of the timber sales that we bought, we bought 5, 
6, 7 years ago. Especially in Colorado, we've moved those to 
the back to get to these high priority acres, as we are losing 
merchantability of that timber. They're very expensive logs, 
and at very low market, with very quickly increasing diesel 
prices.
    So, contract relief is something that we're very much 
interested in getting, to get us through this downturn in 
market caused by the sub-prime loan and the housing crisis. The 
diesel conditions--it's just a very difficult time to--we're 
not making money. We're just trying to survive this short-term, 
market-driven event. We're not asking for permanent contract 
relief, we're looking at short term.
    Everyone knows, when the sub-prime issues quit, there's 
going to be the demand for lumber that we used to have. We 
intend to survive, and be there. Our pellet mills that are 
going in, know that the supply is going to be there, but we 
need the short-term relief.

                           PREPARED STATEMENT

    So, that concludes my comments, and we very much hope that 
we can come up with solutions that moves us from a fire 
service, to a more balanced natural resource-based organization 
again.
    Thank you for your time.
    Senator Allard. Thank you, Nancy.
    Ms. Fishering. Again, I appreciate it.
    Senator Allard. Thank you.
    [The statement follows:]
                 Prepared Statement of Nancy Fishering
    Dear Madam Chairman, Ranking Member Senator Allard, and members of 
the subcommittee. Thank you for prioritizing your time to hold this 
hearing in Colorado to learn about our forestry issues. Thank you for 
inviting me to be a part of this hearing.
    The prior panels have outlined the scale and severity of the issues 
facing us on our forested land in Colorado, and I will just highlight 
the implications from the perspective of local business--specifically 
the timber industry.
    Forest health events have been growing in severity during this 
decade. The 2002 season brought our biggest year for fires when we had 
more than 2,000 fires burning 502,000 acres (2002 Report on the Health 
of Colorado's Forests). Sawmills and loggers shifted operations to 
address fire salvage sales across the State in 2002-03.
    Following this event and recognition that the heavily populated 
front range of Colorado was dominated by overly dense, fire prone 
ponderosa pine forests, the State moved into escalating mountain pine 
beetle (MPB) populations. From 2004 to 2008 the MPB infestation grew to 
a 1.5 million acre issue while simultaneously outbreaks of smaller 
insect and disease events affected 98,000 acres of spruce, 350,000 
acres of subalpine fir, 334,000 acres of aspen decline, and a near 
complete decimation of the pinyon in southwest Colorado.
    This litany of issues pushed forest health to the forefront in 
Colorado at the local, State, and national forest levels. In visits 
last year to the Forest Service (FS) Washington office we heard that 
Colorado issues were among the top three forest health issues facing 
the agency.
    While Colorado forest health issues were exploding exponentially, 
the timber management budgets to region 2 and specifically Colorado 
were dropping.
    Clearly a problem for Colorado is (1) the lack of congressional 
appropriation process that targets forest health, and (2) a similar 
lack of criteria within the FS allocation process that prioritizes or 
targets forest health events similar to these Colorado issue. We were 
horrified to see a 2008 preliminary region 2 timber management budget 
that was a 31.6 percent reduction from 2007. There was considerable 
reworking and the March timber budget resulted in a smaller 8 percent 
reduction. Budget cuts during extraordinary events are very hard to 
swallow.
    The 2009 President's Forest Service budget shows the same 
inattention to major forest health events. During the recent, April 1 
testimony from the Chief of the Forest Service before the Appropriation 
Committee regarding the 2009 budget, an outline was given of the 
funding and priorities for healthy forests. Specifically 
``implementation of the Healthy Forest Initiative and the Northwest 
Forest Plan are key initiatives which receive increased or similar 
levels of funding compared to fiscal year 2008.'' Other priority areas 
mentioned was ``establishing or improving over 2 million acres of 
forest and rangeland vegetation, 1.5 million acres of hazardous fuel 
reductions . . . and capital improvement and maintenance of roads.'' 
All these priorities are important, but sadly, we didn't hear any 
evidence that would improve the vegetative management budgets toward 
addressing the immediate and drastic challenges posed in Colorado 
forests. Likewise correspondence between the Chief and the region 2 
congressional delegation mentions that ``report language include both 
House and Senate direction supporting the administration's priority for 
funding the full timber capability of the Northwest Forest Plan, 
leaving little flexibility to address needs elsewhere.''

----------------------------------------------------------------------------------------------------------------
                                                                                  Initial     Final
                        Line item                             2006       2007       2008       2008       2009
----------------------------------------------------------------------------------------------------------------
NFTM + SSSS..............................................    $22,640  \1\ $26,8    $18,329  \2\ $24,5        TBD
                                                                             07                    69
----------------------------------------------------------------------------------------------------------------
\1\ Add CWK2.
\2\ Add PEVG. Reprogram some WFHF.

    Our observation is that not only does the budget ``flexibility'' 
disappear, but businesses, landscapes, and communities are being placed 
at greater risk. It's clear that a variety of factors affect timber 
management funding, and we acknowledge the constrained budget process 
that currently exists. We are aware that this subcommittee has heard 
testimony regarding the increases in the wildland fire management 
program that now commands 48 percent of the agency's discretionary 
budget request. The combination of these issues is proving to be a 
major issue for proactive forest management.
    On behalf of my industry I'd like to publicly thank and point out 
that Senator Allard and the region 2 delegation were able to identify 
and channel additional funds to region 2 and Colorado. Some dollars 
were added to the vegetation management budget and some became 
available for grants through the Colorado State Forest Service (CFSS). 
Every dollar is greatly appreciated, and ultimately additional 
treatments will be available. Every investment in forest management 
will help reduce the probability and severity of future forest fires 
and insect epidemics, thus reducing future costs of responding to 
catastrophic events.
    We would reiterate that the problem remains that no mechanism 
exists within the FS budget process to address extraordinary events 
like our MPB epidemic. Well designed, fair, and stable budgets that 
allow the region to address the myriad priority issues is key to both 
the effectiveness of forest management and the industry's ability to 
play an effective role in meeting forest health objectives.
    Juxtaposed to the budget woes, the bright spot is the amazing 
response of our Colorado community. Many partners including many local 
governments, the CSFS, Bureau of Land Management (BLM), environmental 
groups and user groups have joined together to develop consensus on the 
scope of the problem, the acres to be treated, the commitment to 
community wildfire protection plans, and the need for alternative 
financing.
    Local governments surrounding Eagle County where we are holding 
this hearing played a critical leadership role in developing consensus. 
Fourteen jurisdictions committed $2.3 million in local dollars in 2007 
with a similar investment allocated in 2008. Countless hours have been 
spent in meetings, and official resolutions of support have been passed 
and shared with Washington officials.
    The State legislature has passed numerous bills addressing 
treatments on the land including a resolution of concern about the 
Federal budget allocations including:
  --Resolution.--HJR08-1033 Concerning healthy forests and the budget.
  --SJR 25 Creating an interim committee to investigate wildfire issues 
        in wildland urban interface.
  --SJR 010 Concerning stewardship contracting.
  --HB 1318 MPB mitigation on State lands.
  --HB 1269 Five-year tax exemption to incentivize purchase of MPB 
        products.
  --HB 1110 Income tax reduction for wildfire mitigation work.
  --SB 071 Concerning extension of the forest restoration pilot program 
        and making an appropriation.
  --SB 221 Authority of the Colorado Water resources and power 
        development authority to issue bonds to fund watershed 
        protection and forest health projects.
    Both the national forest and Colorado approach is to address the 
challenges comprehensively. We try to mix hazardous fuels dollars with 
timber dollars, we use community wildfire protection plans to 
prioritize State pilot projects, we use goods for services to pay for 
campground treatments. We use stewardship contracts to accomplish goals 
in the wildland urban interface, and we are using State and local 
dollars to identify treatments along national forest projects to attain 
landscape scale results. We are careful to protect the resource, but 
there is an urgency to do more, remove more fuel, and operate on a more 
efficient level. The frustration appears at many of these levels about 
the lack of additional funding resources from the Federal Government.
    Each of these efforts and issues meld together as both an 
opportunity and challenge for the industry in Colorado. Industry in 
Colorado declined throughout the 1980s and 1990s with three of our 
largest multi-national mills closing in 2001 and 2002. Adequate timber 
supply was one of the major factors in the decisions to close these 
mills. The remaining small and medium sawmills and the clusters of 
loggers throughout Colorado and southern Wyoming depend largely on 
Federal timber since approximately 75 percent of the forested lands are 
on national forests. region 2 is unique in the degree of reliance on 
the national forests for a supply. Unlike other States, there is not an 
abundance of forested ground on BLM, State, or private lands.
    The combined timber budgets for all Colorado national forests have 
been providing a 4-year rolling average of 40-45 million board feet 
(MMBF) of timber per year. This is a minimal level of supply when one 
considers that the Intermountain Resources conifer mill in Montrose 
requires 42 MMBF annually for just a one-shift operation. The MPB 
epidemic issues and the concerted response effort by the Colorado 
communities and the National Forests successfully increased the sale 
program in 2006 and 2007. Tools such as the HFRA allowed the FS to ramp 
up the speed on projects, CE's were helpful until removed from the 
toolbox by court action, and numerous NEPA-ready projects were prepped 
and sold on an accelerated basis. The future scale of operations 
remains in question again largely due to the competing imperatives 
within the FS budget and the uncertainties of the appropriation 
process.
    Genuine business opportunities hinges on FS funding. The toxic 
recipe of (1) decreasing FS budget levels; (2) increasing diesel costs; 
and (3) falling lumber markets (resulting from the housing and subprime 
loan fiasco), creates a difficult environment to raise capital and 
invest in additional capacity, value-adding technology or biomass 
conversion to alternative energy. We know the lumber markets will 
improve. The projected 50 percent increase in U.S. population over the 
next 50 years assures a long-term demand for lumber. The farm bill and 
energy bill provide pieces of the funding equation for converting 
biomass to energy; however private capital remains necessary to make 
any new investment feasible. Banks and investors then look to the 
timber supply and business health of the industry prior to investing 
capital. The biggest ``unknown'' is the FS funding piece of the puzzle. 
The Federal budgeting process for timber management becomes our biggest 
obstacle to becoming more efficient and expanding investment into 
alternative uses for woody biomass.
    In conclusion, we hope that some of the FS budget issues might be 
resolved when the wildland fire management issue is addressed. We are 
greatly encouraged by the recent support of HB 5541 the FLAME bill. The 
concept of a separate fund for major fires is important, but the FS 
dollars need to be focused on proactive vegetative management 
practices. Specifically, in Colorado, funds are needed on hazardous 
fuel removal projects, timber management along power lines and 
reservoirs, and hazard tree removal along trails and in campgrounds. 
The timber industry can be a tool for any and all of these projects; 
1.5 million acres of standing dead trees create a significant public 
health and safety issue in many, many places.
    We believe that region 2 needs and deserves a commitment to a 
stable budget. In this regard, we are not unique and many regions are 
concerned about the declining timber management budgets. However, we 
also believe that in times of extraordinary events like the MPB 
epidemic extraordinary investments are needed from the FS. Senator 
Salazar likened Colorado to the ``Katrina of the West''. Well, extra 
appropriations were made to assist the Mississippi forests to address 
the down-timber and hazardous trees that posed risks to public health 
and safety. No true increase in management funds has made it to 
Colorado to deal with ``our Katrina.''
    We believe that the smaller FS programs suffer disproportionately 
from budget cuts. Large FS budgets like those found in region 6 have a 
buffer during budget cuts. Case in point region 6 oversees 24.6 million 
acres and has 3,833 employees, while region 2 oversees 22 million acres 
and has 1964 employees (2006 budget analysis). region 2 is one of the 
lowest funded regions in the country while facing one of the largest 
forest health events in the country.
    Thank you again for the opportunity to testify. We appreciate the 
complexity of the problem, but believe that the Colorado experience can 
shed some light on the challenges and perhaps unintended consequences 
resulting from the current budget process.

    Senator Allard. Peter.
STATEMENT OF PETER RUNYON, COUNTY COMMISSIONER, EAGLE 
            COUNTY, COLORADO
    Mr. Runyon. Thank you. My name is Peter Runyon, I represent 
Eagle County, where I'm chairman of the board of county 
commissioners. I also represent Northwest Colorado Council of 
Government--Northwest COG. It's five counties of Eagle, Grand, 
Jackson, Pitkin, and Summit, and indeed, we are at the 
epicenter of this current outbreak.
    It's--I'm also a member of Colorado Counties, Incorporated, 
CCI, public lands subcommittee, as well as a member of the 
public lands subcommittee of NACO, the National Association of 
Counties.
    Thank you for allowing me to testify, and thank you for 
taking your time from your busy schedule to see for yourself, 
your devastated forests. I know you, Senator Allard, are well 
aware.
    Eagle County, as I said, is a member of Northwest COG, and 
members of the Northwest COG have been on the front lines of 
the bark beetle epidemic for 5 years. The natural environment 
is at the core of our economy, so understandably, we have been 
working very hard, dedicating many local resources to battle 
the negative impacts of the die-off of up to 90 percent of our 
forests.
    We've learned a few lessons--our priorities should always 
be the protection of human life, first and foremost, public 
infrastructure, critical water supplies, and personal property. 
Because the beetles know no boundaries, we've learned that the 
best use of our citizens' tax money is to apply our limited 
resources collaboratively, to address those priorities.
    Collaborative approaches to address such an overwhelming 
problem as the bark beetle epidemic, is the only way to achieve 
success. Eagle County has demonstrated its financial and 
political commitment to this fight over the past several years.
    We've adopted wildfire regulation, instituted a CWPP--
community wildfire protection plan--we've partnered with other 
local governments, spending $250,000 just this last year 
creating a 55-acre fire break in the area surrounding West 
Vail, and the town of Vail also contributed $250,000 and the 
Forest Service was a partner, as well.
    We integrate environmental sensitivity in all of our 
projects, turning dead trees into wood pellets for heating 
during the winter.
    That's just Eagle County. Over the past 2 years, member 
jurisdictions in Northwest COG have spent nearly $5 million of 
local sales, use and property tax to address the beetle 
epidemic. Two years ago, the town of Vail alone committed to 
spending $250,000 each year for the next 10 years.
    We've been working hard with our State legislators, as 
Nancy just showed, some of those bills--we passed two of them 
in 2007, and in the current session, as she said, there are 
eight on the table, and the current wisdom is that five of 
those will pass.
    Northwest COG, as you know, Senator, has traveled to the 
District of Columbia. many times to plague you and to plead our 
case to you. Commissioner Rich has brought his little plastic 
chainsaw and put it on your desk, I believe, to say that we 
need some work.
    Just this last February, the CCI, public lands team 
successfully convinced the NACO Public Lands Committee and 
their members to support the Colorado delegation, bipartisan 
bill, in concept. In general, not--they didn't want it Colorado 
specific, but all of the elements of it they support, because 
as you know, this is broader than just Colorado.
    So, that's what we're doing on the local level, and truth 
be known, it's pretty inadequate. The epic scale of this 
infestation is overwhelming, and that's why we need help. One 
can probably argue, successfully, that we have exceeded the 
sustainable holding capacity of these high mountain valleys. 
But, beyond the ground reality is that we are here. Eagle 
County's latest assessed valuation was $3 billion, which 
translates into over $30 billion of market value in Eagle 
County. The five Northwest COG counties are probably, 
cumulatively, three to four times that total.
    I would argue that our mountain resorts are the single-
largest economic driver to the success of Colorado, as a whole. 
Our mountain tourist industry is what sets Colorado apart. I 
might even stretch this a little bit further to include the 
mountains as one of our national icons. Indeed, ``America the 
Beautiful'', was written by Katherine Lee Bates atop of Pikes 
Peak.
    It has been argued that this epidemic is part of the 
natural cycle of nature. That is absolutely true. But 
visitors--our tourist base--do not want to come here to renew 
their souls on a burned, sterilized forest.
    Remember, caterpillars and grubs are also part of our 
natural environment, but they have no appeal. But when they 
turn into butterflies, magic happens.
    To stretch the analogy, we need to accelerate the larva 
stage of our forest, to allow the next forest to emerge. If we 
do little or nothing, most predictions are that we will have a 
series of catastrophic wildfires. This sounds very similar to 
the earthquakes in San Francisco. It is never a question of if, 
but when. Tell me--if you had a chance to mitigate the severity 
of future earthquakes in San Francisco, wouldn't you take it?

                           PREPARED STATEMENT

    So it is here. Had we invested millions in prevention 
before Katrina struck, we would surely have saved billions of 
taxpayers' dollars in reparations. So it is here.
    Thank you very much.
    Senator Allard. Thank you for your comments.
    [The statement follows:]
                   Prepared Statement of Peter Runyon
    My name is Peter Runyon. I represent Eagle County where I am chair 
of the board of county commissioners. I also represent the Northwest 
Colorado Council of Governments (NWCCOG) comprised of five counties: 
Eagle, Grand, Jackson, Pitkin, and Summit as well as 23 towns and 
municipalities. I am also a member of Colorado Counties Inc. (CCI), CCI 
Public Lands Subcommittee as well as a member of the National 
Associations of Counties (NACO) Public Lands Subcommittee.
    Thank you for allowing me to testify, and thank you for taking time 
from your busy schedule to see for yourself our devastated forests.
    Eagle County and the members of NWCCOG have been on the front lines 
of the bark beetle epidemic for 5 years. The natural environment is the 
core of our economy, so understandably, we've been working very hard, 
dedicating many local resources to battle the negative impacts of the 
bark beetle die off of up to 90 percent of our forests. We've learned a 
few lessons.
    Our priorities should always be protection of human life, public 
infrastructure, critical water supplies, and personal property.
    Because the beetles know no boundaries, we've learned that the best 
use of our citizen's tax money is to apply our limited resources 
collaboratively to address those priorities. Collaborative approaches 
to address such an overwhelming problem as the bark beetle epidemic are 
the only way to achieve success.
    Eagle County has demonstrated its financial and political 
commitment to this fight over the past several years. We adopted 
wildfire regulations and instituted a CWPP. We've partnered with other 
local governments spending $250,000 last year creating a 55-acre fuel 
break in areas surrounding the town of Vail who also contributed 
$250,000. We integrate environmental sensitivity in all of our 
projects, turning the dead trees into wood pellets for heating during 
the winter.
    That's just Eagle County. Over the past 2 years, member 
jurisdictions in NWCCOG have spent nearly $5 million of local sales, 
use, and property taxes to address the beetle epidemic. Two years ago, 
the town of Vail, alone, committed to spending $250,000 per year over 
the next 10 years.
    We've been working hard with our State legislators to pass laws 
that will allow the State and local governments to obtain increased 
funding and work more cooperatively. In 2007, two bills were passed and 
in the current session we expect the passage of five more bills.
    NWCCOG has traveled to Washington, DC, many times over the past 3 
years, as Senator Allard knows all too well to promote the bipartisan 
Colorado delegation forest health bill. Our CCI public lands team, just 
successfully convinced all of NACO to support the intent of the bill.
    So that's what we're doing at the local level, and truth be known 
it is pretty inadequate. The epic scale of this infestation is 
overwhelming, and that's why we need help.
    One can probably argue successfully, that we have exceeded the 
sustainable holding capacity of these high mountain valleys. But the on 
the ground reality is that we are here. Eagle County's latest assessed 
valuation is more than $3 billion yielding a market value of 
approximately $30 billion. The five NWCCOG counties are probably three 
to four times that total. I would also argue that our mountain resorts 
are the single largest economic driver in the success of Colorado as a 
whole. Our mountain tourism industry is what sets Colorado apart. I 
might even stretch this a bit further to include our mountains as one 
of our national icons. Indeed, ``America the Beautiful'' was written by 
Katharine Lee Bates atop of Pikes Peak.
    It has been argued that this epidemic is a part of the natural 
cycle of nature. That is true. But visitors don't want to come to renew 
their souls in a burn-sterilized forest. Remember, caterpillars and 
grubs are also a part of the natural environment, but they have no 
appeal--but butterflies are magic. So it is with our forests. To 
stretch the analogy, we need to accelerate the larval stage of our 
forest to allow the next forest to emerge with wings of green.
    If we do little or nothing, most predictions are that we will have 
a series of catastrophic wildfires. This sounds very similar to 
earthquakes in San Francisco--it is never a question of if, but when. 
Tell me, if you had a chance to mitigate the severity of future 
earthquakes in San Francisco you would take it? So it is here. Had we 
invested millions in prevention before Katrina struck we would have 
saved the taxpayers billions. So it is here.
    Thank you.

    Senator Allard. Jim Ignatius.
STATEMENT OF JIM IGNATIUS, COUNTY COMMISSIONER, TELLER 
            COUNTY, COLORADO
    Mr. Ignatius. Good morning, Senator.
    Senator Allard. Good morning.
    Mr. Ignatius. Again, as all of the panels have said, thanks 
for being here.
    I'm a retired firefighter/paramedic from Chicago, and I 
moved to Teller County in 1995. I've been a commissioner since 
just after the Hayman fire.
    I'm a member, with Peter, on public lands at CCI, and also 
represent Colorado at the Federal level at NACO with respect to 
public lands, and I set on the board of directors for the 
State's emergency fire fund, as well as the Colorado Healthy 
Forest Advisory Council.
    I'd like to share a little bit about Teller County from a 
local's perspective. It's not quite as big as Eagle County. 
Teller County is about 600 square miles, 50 percent of that is 
public lands, all of which are in the wildland urban interface. 
We are rated in the red zone, the whole county, by the U.S. 
Forest Service, and we are mostly a ponderosa forest, with tree 
densities approaching 10 times historic levels. To the west of 
us is 15 miles of uninterrupted fuel that has not burned in the 
Hayman fire.
    Teller County is home to the Hayman fire, Colorado's 
largest fire, with 137,000 acres to burn in June 2002. Our 
watersheds, Denver's watershed, our property values, and our 
economy took a direct hit with the Hayman fire, of which we are 
still recovering. Approximately 20 percent of our annual 
transportation budget--our budget is about $4.5 million--goes 
to repair the same 3 percent of our roads every single year, 
due to flooding from the Hayman Fire.
    Teller County is one of the first in the State to complete 
a county-wide community wildfire protection plan. We began the 
plan just after the President signed the Healthy Forest 
Restoration Act, and we finished it in the spring of 2005.
    In 2001, Teller County was mitigating fuel loads on less 
than 600 acres, annually. We didn't have community buy-in--
people loved our trees, as was mentioned before. It's very 
difficult to change the culture, but after 5 years of working 
on it, I think we're just about there.
    In 2007, we've indicated, over 4,000 acres, one-half of 
that on public lands, one-half of that on private lands. We 
have an education program, we have a not-for-profit that 
assists us with over 4,000 volunteer hours annually. We have a 
very active Community Wildfire Protection Commission. We have a 
slash/mulch program, and the county adopted new land use 
regulations in December 2007, which addresses defensible space, 
and we try to keep the issue on the front page of our local 
papers, as often as we possibly can.
    As far as major issues, most of them have been said earlier 
through different panelists. Regulations--when it takes years 
to complete the NEPA process and the categorical exclusion, 
that would be very helpful if that was shortened. Time is 
money.
    The industry--most mills have closed up. We, in Teller 
County, still ship all of our logs to Montrose. With the price 
of diesel the way it is today, I don't know when that will 
become less cost effective or when it won't cash flow, but my 
guess is, we're probably there now.
    Longer stewardship contracts--we have folks that are 
interested in putting in biodiesel pellet plants, but unless 
that stewardship contract is extended beyond what it currently 
is, they don't want to expend the dollars. Funding--it all 
comes down to funding--Federal, State, and local.

                           PREPARED STATEMENT

    Education--changing the culture at the local level has been 
key--we don't have a lot of dollars, so we take advantage of 
board meetings, presentations, and things of that nature. We 
try to spend our dollars very strategically, by treating acres 
with respect to ridgelines, roads, valleys and other strategic 
areas.
    That concludes my presentation, thank you.
    [The statement follows:]
                   Prepared Statement of Jim Ignatius
            touch of myself, teller county, and major issues
    I'm a retired firefighter/paramedic from the Chicago area and moved 
to Teller County, Colorado in 1995.
    I've been Teller County Commissioner since 2003.
    I'm a member of the Public Lands, Land Use, and Wildlife Steering 
Committees at Colorado Counties Inc., which critiques legislative 
issues at the State level.
    I also represent Colorado at the Federal level through NACo 
(National Association of Counties) with respect to public land issues.
    I sit on the board of directors for the States Emergency Fire Fund.
                    a little bit about teller county
    Teller County is 600 square miles, 50 percent of that is public 
lands all of which is in the wildland urban interface. We are mostly a 
ponderosa forest with tree densities approaching 10 times historic 
healthy forest densities.
    Teller County is home to the Hayman fire--Colorado's largest forest 
fire at approximately 40,000 acres.
    Our watersheds and Denver Water's watershed took a direct hit with 
the Hayman fire.
    Approximately 20 percent of our annual transportation budget (from 
2002-2007) has been spent mitigating road damage due to flooding on 3 
percent of our roads in the northern part of Teller County (the Hayman 
area) at the expense of the other 97 percent.
    Teller County was one of the first in the State to complete a 
county-wide community wildfire protection plan. The plan began in 2004 
and was completed in 2005.
    In 2003, Teller County was mitigating fuel loads on approximately 
600 acres. We did not have community --people love their trees. It was 
very difficult to change the culture. In 2007, we mitigated over 4,000 
acres, half of that on public lands and half on private lands. We have 
a education program; we have a not-for-profit that assists us; we have 
a very active community wildfire protection commission, we have slash/
mulch program and we try to keep the issue on the front page of our 
local papers as much as possible.
                              major issues
    Regulations.--(when it takes years to complete a NEPA process it 
adds to the cost and reduces the effectiveness). We need to remove the 
gridlock to harvesting wood.
    Industry.--(most mills have closed up, Teller County now transports 
its logs to Montrose).
    Longer stewardship contracts with private industry.
    Funding.--Federal, State, and local (incentive based such as HB1110 
income tax deduction, grant based at the local level such as HB07-1130 
Colorado Water Conservation dollars). One size does not fit all. This 
legislation allows for flexibility at the local level.
    Forest improvement districts sounds like a good idea, but I come 
from a county, like many of you, that will never pass a blanket mill 
levy increase.
    Education/changing the culture at the local level is key (we don't 
have a lot of money so we take advantage of our board meetings and 
presentations).
    Spend dollars strategically we don't necessarily treat all the 
acres we treat ridgelines, roads, valleys, and other strategic areas.
    From the county's perspective local government is already working 
on methods that work for their community, so I would encourage this 
subcommittee to take into account the flexibility that the local level 
offers because one size does not fit all.

    Senator Allard. Thank you, Jim. We've been kind of looking 
forward to your testimony, because you're a former firefighter, 
in addition to being involved in local government.
    What do you think are the most important things we can do, 
given the devastation right now that we're facing with the pine 
beetle to prevent a fire catastrophe?
    Mr. Ignatius. Well, as we had said before, we have to--in 
Teller County, with respect to our fuel loads, we have got to 
reduce the fuel loads. We have, like I said, from Woodland Park 
to Wilkerson Passes, almost 15 miles of uninterrupted, high-
density, dry fuels. If we can let--assist with the market a 
little bit by having longer stewardship contracts, less 
regulations and funding at the Federal, State, and local 
levels, I think that would help tremendously.
    Senator Allard. Now, I see you were instrumental in helping 
develop the Teller County's community wildfire protection plan. 
Unfortunately, not all of the communities in the west have 
followed your lead. What can be done to encourage other 
communities to develop community wildfire protection plans?
    Mr. Ignatius. Well, Senator, I think that the foundation is 
there, because as was mentioned earlier, the Healthy Forest 
Restoration Act provides an incentive if you do have a 
community wildfire protection plan, you can steer your efforts, 
in cooperation with the U.S. Forest Service, State forest 
service, and all the grant opportunities through the State 
government--you can, the incentive is there, and you jump ahead 
of the pack as far as getting funding for all of those.
    So, being that that is a prerequisite for all levels of 
mitigation, I think it's there. I think you don't have to 
reinvent the wheel as a community, whether it be a county or a 
smaller-type community wildfire protection plan, because ours 
in on the website, now Eagle County's--you can take that 
format, plug in the data from your area, work with your local 
forest district, the State forest district. The tools are there 
to create the plans. Being that you can't get anything without 
the plan, I think the foundation is there.
    Senator Allard. What do you think are the current obstacles 
and issues that prevent us from having healthy forests in the 
West?
    Mr. Ignatius. Again, it's just what was mentioned before, I 
think the longer stewardship contracts--we would have private 
industry pop up with a biomass, or--woody biomass, similar to 
the one that's going up in Kremlin, if there was longer 
stewardship contracts and they can assure something greater 
than 10 years.
    Less regulations--I know that our local forester has his 
challenges, like all of you folks do--with the NEPA process and 
the categorical exclusions, so if that could be streamlined in 
some way--when we have to wait 2 to 3 years to cut a tree down, 
time is money.
    Then, the last thing, of course, is funding.
    Senator Allard. Thank you.
    Mr. Ignatius. Thank you.
    Senator Allard. Nancy, how long is the timeframe that the 
trees retain their commercial value once they're infested with 
beetles?
    Ms. Fishering. It varies. We're finding some trees--we're 
looking at a 5- to 7-year window on some of the trees. It 
depends on elevation, depends on the aspect of the--which side 
it is--south-facing, west-facing. Because some--they start to 
check, is what happens, Senator Allen. They stand there dead on 
the stump, and if they get wet in the winter, especially on the 
hot, south-facing slopes, get very baked, and then the tree 
starts to twist a little bit. So then, little cracks go into 
the tree, and so every year that diameter, where it might look 
like a 10-inch diameter, or a 7-incher, you're losing diameter, 
every year.
    But one of the things that--the investments that have been 
put in, in Colorado, is we're pretty used to getting small 
diameter, we can take at the Montrose sawmill down to 4\3/4\ 
inch tops. For example, right now, we don't say 4\3/4\ inch 
tops when we're in Glenn Casamassa's territory, because it 
can't be smaller than 7 inch now, because it's already checked.
    So, you're getting some value, all the way down. We're 
actually not even able to get an 8-foot section of wood out of 
some of them, now, and we end up a lot more 4-foot sections. 
The mill just bought a finger jointer, last week, oddly enough, 
in this market, but that's because someone else went bankrupt, 
and we bought their equipment, good cents on the dollar. So, 
now we'll be able to finger-joint two 4-foot sections together.
    So, we're constantly doing these kind of efficiencies to be 
able to continue to use the smaller diameter material.
    So, it does vary, but we can get up to 7 years. So, the 
prevailing wisdom in some places in Canada is, they're not 
getting that kind of--but it's an elevation issue, apparently.
    Senator Allard. Their elevation is lower?
    Ms. Fishering. It just varies. I can't explain it, I 
don't--and that's techie to me. I can only go so far teching, 
and then I'm out of my range.
    But we do find some that, in 3 years, we're very challenged 
to have a merchantable tree left.
    Senator Allard. Yes, the wood pellets, you know, I hear 
that they burn more efficiently, and there's less emission from 
wood pellets and what not. Is there a market out there? Is it 
struggling? Where are we at on wood pellets, as far as----
    Ms. Fishering. We've got one operational mill that's 
actually running, we've got several investors ready to go. Our 
sawmill has looked at co-gen from pellets, all the way to 
actually partnering with our local utility. The price of those 
kind of plants go from $2 to $10 million. Cash, right now, in 
this capital--markets are very--it's difficult to come by, 
partially--when people come in and look at funding you, they 
also look at Forest Service budgets. So, it's really concerning 
to me.
    But, there is a market for it, there's different markets. 
There's the residential market, and then there's a commercial 
market, and then there's--how can we incentivize people to put 
in, for example, some schools. Large commercial could use a lot 
of pellets. It's a less-refined product that they can use, it's 
a little rougher product they can use.
    But we still run down to, what's diesel fuels going to be 
doing, in terms of where the market is, how far out do you have 
to go to find markets? Again, I think that the Colorado sales 
tax exemption may help people to start saying, ``Well, I'm 
going to buy a Colorado pellet,'' and help find our own markets 
right here at home.
    Senator Allard. Define to me, define--I can see the 
commercial market. I'm having a hard time seeing the domestic 
market out here for the noncommercial side.
    Ms. Fishering. My understanding is it is more challenging 
to get that--into that residential market. We did give a 
presentation to the Forest Service Forest Supervisors in 
September, because we have a mill up in South Dakota that does 
the residential market, and they find it very hard to use dead 
trees.
    Dead trees, as they dry out, they have less lignites in the 
tree, so they have to add a polymer to it, to keep them 
together as a pellet. Polymers create clinkers. So, in a 
residential market, that makes it a little trickier to sell.
    So, residential might be the challenge, commercial we know 
you can use--it's just a bigger operation, so they can handle 
the dead pellets. There's good markets there if we developed 
our own markets here in Colorado.
    Senator Allard. Now, you commented about the aspen--some of 
the die-off in the aspen. I've heard various theories I don't 
know if anybody's come up with any specific reason why the die-
off, I've heard everything from a virus to just old stands and 
the root system is just given out, so the whole stand is going.
    Ms. Fishering. Well, actually they call it sudden aspen 
decline--and before they put that label on it----
    Senator Allard. That doesn't mean anything.
    Ms. Fishering. Well, I'm going to just tell you--before 
they label it that, there's two ips beetles, two bores, and a 
canker working on the same stand of aspen.
    Senator Allard. So, you see it as a combination of issues.
    Ms. Fishering. It is a combination of issues. So, that's 
what makes it unique from what we see in other aspen issues. 
We've been working collaboratively over on the western slope, 
with--what does this mean? What's the new challenges? We do 
have three large aspen--the second-largest mill in the State of 
Colorado's an aspen mill. We have, that again, three-quarters 
of that investment's in the Southwest part of the United--of 
Colorado.
    Senator Allard. I see.
    Okay, blue stained wood, is that moving?
    Ms. Fishering. We are--we're doing 100 percent blue stained 
wood. We've had to--early on, we had to create new markets for 
it at the Montrose mill. We turned it into decking, sold it up 
to Minnesota, it got treated in Minnesota, and it's being sold 
east, because they don't care about the color, and they treat 
it.
    Now we're selling it because it's structurally sound, 
there's no reason not to use it, and we've actually overcome a 
lot of our marketing, because we sell 100 percent of what comes 
out of our mill, today, is blue stained wood.
    Senator Allard. Okay, now, the last question I have has to 
do with Range Fuels--have you ever heard of Range Fuels? The 
company Range Fuels? They have developed a process--I visited 
their plant a couple, 3 weeks ago--where they take wood chips, 
and they process them into ethanol. Some of the ethanol that 
they process goes back into running equipment, so they are 
almost a stand-alone.
    They tell me that in this climate, they're not going to be 
able to meet the needs to produce ethanol, because of the time 
it takes to mature a tree in this climate is so much longer 
than it is in Georgia. So, they're building a Georgia plant. Do 
you want to comment on that?
    Ms. Fishering. I am--now that you explained what you're 
referring to--Excel Energy sent out an RFP in November 2007, 
asking for anybody to do a renewable energy powerplant that 
could create 50 megawatts of power. We got phone calls, just 
nonstop, of people trying to figure out are we the renewable 
side that--mill, Intermountain produces 400 green tons of 
biowaste per day. So, these folks--even the $30 million plant 
that--I don't know where Rick is, now. He mentioned they got a 
$30 million DOE grant, and they're going to take seven 
truckloads of wood, daily. We do 42 trucks of wood, daily. It 
really is not the answer for the landscape-scale issues we're 
talking about.
    But, we did look at it at Intermountain, and the $10 
million proposal that we had on the table is working with our 
local electric utility, where we would do nonethanol, but turn 
it into electricity. That's part--would meet their goal of 
having renewable energy, they have a goal of 25 percent by 
2025. So, that's $10 million, so we're all sitting there going, 
``Can you guarantee a supply that will pay off a $10 million 
investment?'' That's the stumbling block for folks.
    But we also talked to the folks about the ethanol, and what 
we were being told, that technology is 3 years out. The 
equipment--to buy the equipment is 3 years out.
    So, it's not really a short-term answer for the issues that 
we're dealing with in Eagle County today.
    Senator Allard. Peter, you're last in questioning--you want 
to talk a little bit about how you think the healthy forests 
have an impact on the tourism industry? You're a local business 
person, and, you know, you're here in the middle of the tourist 
economy and what not, do you want to comment a little bit about 
how you see it impacting the tourist economy?
    Mr. Runyon. Sure. Yes, I sell postcards and souvenirs from 
Estes Park to the Four Corners region, all of the ski areas in 
between--I pretty much cover the country.
    It's--people come here because it isn't like back home. I 
mean, it's--it's the same thing with the beach resorts, and 
it's--I mean, I look at it two different ways. One is, we've 
still got the mountains. It's still beautiful, it's still 
spectacular. You could say, ``Well, you know, maybe it's just 
sort of like changing a jacket from green to orange to grey,'' 
but that's trying to put a little too nice a spin on it.
    I think it will affect us, particularly if we have these 
catastrophic wildfires. That's going to make an incremental 
difference.
    In Eagle County, we're a little luckier than some of the 
other counties in that, at least at this point, our percentage 
of lodgepole pine is a relatively small percentage, but if we 
have the SAD in the aspen and the spruce beetle, and it starts 
going further, it could truly be catastrophic.
    Within the ski areas, there is--there are issues of--one of 
the things that trails cut through the forests do, is they 
separate skiers. So, there's a greater sense of isolation, when 
in fact, if those trees weren't there, you would get a lot more 
people skiing side-by-side, and arguably you would be 
minimizing that sense of being at one with nature that you get 
when you ski.
    It's going to be a problem as we work forward, and the key 
thing, as several people have mentioned is, what we need to do 
is accelerate the next forest. If we remove the dead trees--and 
the reality is, in a tourist sense, we need to remove the ones 
the people can see. If they're on the other side of the hill, 
it's less important. Get that--the beauty of nature is that it 
does renew. We'll get new forests coming up.
    I kind of waffled around that question. Sorry.
    It's not an easy answer.
    Senator Allard. Yes, well, I didn't expect it to be. But I 
knew you're very adept at dealing with tough questions, so I 
thought I'd give you that.
    Mr. Runyon. Thank you.
    Senator Allard. What can--you know, it's kind of hard to 
visualize, I guess, what the landscape might look like 10 years 
from now. So, in terms of restoration, what do you think the 
Forest Service can do to restore our forests? That's open to 
all members of the panel, that question.
    Ms. Fishering. I'd like to just weigh in, just for a 
moment, because part of the usefulness of a collaborative is 
back to getting everybody at the same table, and answering that 
together. So, if you want to watch us wrestle that question, 
we're doing it as we speak.
    Because the new BIT team, the Beetle Implementation Team 
that's going to be looking into the next forested acres, that's 
right on the front of our conversation. I think we need to 
emphasize how much that there is that we can do that we all 
agree on. We have numerous representatives of environmental 
groups here today that--they're right there with us. We're 
trying to figure out how do you prioritize it, and how you 
design that new community.
    Part of it is, the whole conversation you brought up before 
about, how do you protect your reservoirs? How do you protect 
your power lines? Those are all the conversations we're having 
as, what does that need to look like? How do you get the 
communities to react so we're not in this position 50 years 
from now?
    So, all I'm saying is, we're in that process right now, I 
don't have an answer for you. But the collaboratives, I think, 
are key to getting us there.
    Mr. Runyon. I think as we move forward, and as Cal 
Wettstein showed so well, is the double-hump camel, which is 
the fire risk going up in the red area, and then going down, 
and then back up over the long term.
    The good news is that if we can minimize that first hump, 
then we have a longer time period to start dealing with this. 
In situations like the town of Vail, committing investment over 
a 10-year period, we can chip away at it. I think it's--but 
we've got to keep it in mind, we can't push it off, it's like a 
slow-speed tsunami that is coming in very gently, rather than 
all at once. But, pretty soon, the water is up to your nose, to 
extend the analogy.
    So, what it will look like will be an ongoing dealing with 
the issue. Obviously, the first and foremost is dealing with 
the WUI, the wildland urban interface--those close areas where 
the fire risk is greatest. I think that Senate bill, Colorado 
Senate bill 2210, is very important in that it's incentivizing 
the water providers to step up and take advantage.
    It--right now we're up here in the mountains, we're a small 
community, and the Denver Water Board, we both testified, 
Denver Water Board, and Eagle County, in favor of that bill, 
and it's sort of strange bedfellows, because we've----
    Senator Allard. Do you think the cities, or the counties, 
would look at maybe tree planting as part of their program, 
with volunteers? Is that, locally, is that something that you'd 
look at? Or do you think just the natural regeneration of the 
forest, with the seeds and everything that are brought about 
with germination because of the forest fires is adequate?
    Mr. Runyon. I think the experts would say that the forests 
are doing the regenerating themselves, once we take the dead 
out. Of course, when the dead, at first, block the Sun, so that 
doesn't help regeneration. But they would be better equipped to 
answer that.
    But, where it's not, then we obviously should step in and 
do that.
    Senator Allard. Jim.
    Mr. Ignatius. I think our biggest challenge is tree 
density. If the--if we keep suppressing the fire that used to 
go in and reduce that tree density--because of the housing, 
because of the wildland urban interface, because of all of the 
issues that Teller County faces, the beetles will take care of 
it, or the mistletoe will take care of it, or whatever Mother 
Nature can throw at it, will reduce the tree density. So, if we 
don't do it mechanically, it's going to happen on its own.
    So, I think it's----
    Senator Allard. Well, what do you think about--what type of 
restoration program--let's say we have a fire, like the Hayman 
fire, I mean, what do you think, seeing what happened with the 
Hayman fire, is there anything you think we can do to improve 
our restoration approach after a fire like that?
    Mr. Ignatius. Unfortunately, local government gets stuck 
holding the bag on a catastrophic event like that, when a--with 
respect to property values, with respect to roads, with respect 
to drainage. Like I said before, it's been almost 6 years now 
of that happening on an annual basis.
    I think as far as the cost goes, I mean, the Hayman fire, 
on the Federal side of it, has been over $200 million for 
suppression and for restoration. That doesn't include lost 
property values, the watershed, as far as Denver Water pumping 
about $8 million into their sedimentation basins every year, to 
reduce that sediment that's going into Cheesman Reservoir, and 
our local transportation issues.
    So, if you just take the $500 per acre times 130,000 acres, 
it's one-quarter of that value to treat it up front, as opposed 
to suppressing it and rehabbing it.
    I think they've done a pretty reasonable job on the area of 
the public lands, as far as the U.S. Forest Service, but like I 
said, what falls through the cracks is what falls onto local 
governments. That is the transportation issue, the loss--our 
economy is 100 percent dependent on tourism, also. So, when 
they closed Pike National Forest, most of Pike on the northern 
part of Teller, Park and Douglas Counties, it affected our 
economies tremendously in 2002, and beginning of 2003.
    I hope that answers the question.
    Senator Allard. That's a good shot.
    Mr. Ignatius. Okay.
    Senator Allard. Thank you.
    I'm going to bring the hearing to a close. I want to thank 
the three panelists for coming and testifying.
    The record, now, will be open for 1 week, so we can still 
take additional comments.
    There might be questions to be submitted from the 
subcommittee to you. I just ask that you respond to them in a 
short period of time.
    Ordinarily in 10 days we ask them to get back to the 
subcommittee. We'll take electronic comments which would 
probably be the best, and then you can work with the staff to 
find out the proper email address.
    Then again, thank you to Eagle County for providing us 
for----
    Mr. Ignatius. Thank you.
    Senator Allard [continuing]. A very nice facility. It's 
been great to be able to work with your staff and everything, 
putting together this hearing. I hope we haven't been too much 
of a bother for you.
    Mr. Ignatius. Not at all, it's our pleasure.
    Senator Allard. Then, also, I want to thank all of you for 
being here and taking a specific interest in this very serious 
problem that we have, throughout the West--it happens to be 
Colorado's--one of the States--and we just--your input is 
helpful as we try and determine how we can proceed from here. 
So, I want to thank you for all of that.

                    ADDITIONAL SUBMITTED STATEMENTS

    Now, any groups that would like to submit comments can send 
comments electronically to our staffs, and these comments will 
appear in the record for your hearing, here. Okay?
  Prepared Statement of Mark Udall, U.S. Representative From Colorado
    Senator Allard, thank you for convening this field hearing 
regarding an issue that I have been working on for a number of years--
the forest health and community impacts of the bark beetle epidemic 
that is affecting many parts of the western United States, but 
especially the central and northern mountains of Colorado.
    When this epidemic was just taking off in the early part of this 
decade, I contacted the Federal Emergency Management Agency (FEMA) to 
help communities prepare for fires and floods that would come from the 
large stands of beetle-killed trees, and was successful in convening a 
meeting with the affected communities and regions with FEMA last year 
in Granby, Colorado. As early as 1999, former Representative Joel 
Hefley and I worked together to introduce legislation easing 
restrictions on thinning projects in our national forests, and I also 
supported the Healthy Forests Restoration Act, which streamlined the 
process for identifying and implementing forest treatment projects to 
reduce fire threats to communities and watersheds.
    In 2005, Representative John Salazar and I convened a meeting with 
local communities and affected interests in Winter Park, Colorado, in 
the fall of 2005 to explore potential congressional responses to the 
bark beetle epidemic. That meeting lead to the introduction in 2006 of 
the Rocky Mountain Forest Insects Response Enhancement and Support--or 
Rocky Mountain FIRES--Act, a bill designed to provide the Forest 
Service and Interior Department with more tools and resources to 
respond to this serious problem. Portions of that bill were later 
incorporated into the Colorado congressional delegation bill, H.R. 
3072, the Colorado Forest Management Improvement Act of 2007, which was 
introduced late summer of last year to help provide additional 
resources to address the threats from beetle-killed trees. I appreciate 
that you and Senator Ken Salazar have introduced the Senate companion 
(S. 1797) of this important legislation.
    In addition to this delegation bill, I have introduced three other 
bills this year to help address the implications of this beetle 
epidemic and help communities better mitigate, respond to and address 
the potential fires, floods and other impacts associated with large-
scale tree mortality. These bills include:
  --H.R. 5216, the Wildfire Risk Reduction and Renewable Biomass 
        Utilization Act, would revise the definition of renewable 
        biomass established by section 201 of the Energy Independence 
        and Security Act of 2007 so as to facilitate and encourage the 
        use of biomass removed from certain additional forest lands as 
        an energy source, in order to reduce the risk of severe 
        wildfire to communities, infrastructure, and water supplies. 
        This biomass would include trees killed by the bark beetle.
  --H.R. 5218, the Fire-Safe Communities Act, a companion to Senator 
        Dianne Feinstein's S. 2390, would provide incentives for at-
        risk communities to adopt a new model Fire Safe ordinance that 
        will set national standards in building codes, creation of 
        ``defensible space'' around homes, and reduction of hazardous 
        fuels. It also would authorize new Federal grants to help 
        communities integrate fire-resisting aspects into local 
        ordinances, and would authorize increased Federal reimbursement 
        of firefighting costs to participating communities.
  --H.R. 5241, the Colorado Forest Insect Emergency Response Act of 
        2008, which would amend the Healthy Forest Restoration Act of 
        2003 to allow certain forest treatment projects (such as 
        thinning) in areas hard hit by the bark beetle and within 
        community wildfire protection plans to be categorically 
        excluded from environmental reviews under the National 
        Environmental Policy Act.
    These bills promote preventative measures--actions that will help 
reduce damaging wildfire threats. Preventative measures--such as 
reducing fuel loads--are vastly more cost effective than fighting fires 
once they start. Fire suppression costs are consuming an every 
increasing part of the budgets of the Forest Service and the other land 
management agencies. These costs are only likely to increase given the 
spread of the bark beetle, drought and other factors.
    That is why I support another bill, H.R. 5541, the Federal Land 
Assistance, Management and Enhancement Act or FLAME Act. This bill 
would provide a supplemental funding source for catastrophic emergency 
wildland fire suppression activities on Department of the Interior and 
national forest system lands and to require the Secretary of the 
Interior and the Secretary of Agriculture to develop a cohesive 
wildland fire management strategy. It would create a fund that would be 
separate from the budgeted and appropriated agency wildland fire 
suppression funding and be used only for catastrophic, emergency 
wildland fires. The Federal land management agencies will continue to 
fund anticipated and predicted wildland fire suppression activities 
within their annual budgets.
    By establishing this separate fund, the bill would help free up 
funds so that the Federal land agencies can perform all the other 
missions and activities we demand of them as well as help fund 
additional preventative forest health treatment measures and projects.
    Senator Allard, as you know Colorado and other Rocky Mountain 
States face a very real risk of severe wildfires in our forest lands, 
which directly threaten many communities and critical resources, 
including water supplies.
    There are several reasons. One is drought. Another is past 
management that over-emphasized fire suppression, even though fire is 
an inescapable part of the ecology of our western forests, with the 
result that in many parts of the forests there is an accumulation of 
underbrush and small-diameter trees greater than would be present if 
there had been more, smaller fires over the years. They provide the 
extra fuel that can turn a small fire into an intense inferno.
    The problem has been made worse by our growing population and 
increasing development in the places where communities meet the 
forests--the ``wildland urban interface.'' And when you add the effects 
of widespread infestations of insects, you have a recipe for even worse 
to come.
    Many species of bark beetles, such as the mountain pine beetle, are 
native to our forests. They place stress on trees by burrowing through 
the bark. If a tree is healthy, it can defend itself by producing sap 
to repel and expel the invaders. But if the defense fails, the insects 
lay their eggs in the woody material below the bark. Once the eggs 
hatch, they feed on the tree's fiber and disrupt the flow of water and 
nutrients from the tree's roots to its needles and branches. In 
addition, the invading insects bring in fungi and other invaders that 
further damage the tree. If enough insects are able to penetrate the 
tree and lay eggs, the tree dies. The offspring then mature and fly to 
another tree and the cycle begins anew.
    These insects help to balance tree densities and set the stage for 
fires and thereby the generation of new tree growth. And when forests 
are healthy and there are adequate supplies of water, the insects' 
effects are relatively low-scale and isolated. But under the right 
conditions--such as drought, unusually warm winters, or when there are 
dense stands of even-aged trees--the insects can cause large-scale tree 
mortality, turning whole mountainsides and valleys rust red.
    That is what is happening in many mountainous areas in Colorado. 
And more and more our mountain communities find themselves in 
uncomfortable proximity to acres of dead trees, turned rust red by the 
insects and adding to their concerns about the danger of very severe 
wildfires.
    All Coloradans were reminded of this earlier this year when the 
Federal and State foresters reported that the beetle infestation first 
detected in 1996 grew by a half-million acres last year, bringing the 
total number of acres attacked by bark beetles to 1.5 million, and has 
spread further into Front Range counties east of the Continental 
Divide.
    We cannot eradicate insects from our forests--nor should we, 
because insects are a natural part of forest ecosystems. Instead, we 
can and should act to reduce the wildfire threats to our communities--
and their residents' lives and property--as well as to promote research 
on ways to improve the health of our forest lands. All of the bills I 
have mentioned have been in response to this epidemic and the larger 
issue of forest health. We need to continue to work together--at the 
local, State and Federal level--to respond to these issues and make our 
communities safer and protect lives, property and water supplies. The 
economy and environment of our State demand no less.
                                 ______
                                 
   Prepared Statement of The Colorado State University Forest Service
    Colorado is experiencing the largest mountain pine beetle (MPB) 
outbreak in our State's recorded history. Beetle infestations are a 
natural part of forest ecosystems, but the old age of many of the 
State's lodgepole pine forests makes them susceptible to large-scale 
epidemics. Old forests, drought, lack of forest management, years of 
fire suppression, and warm temperatures all have a role in fueling this 
epidemic.
    Since the infestation began in 1996, it has been intensifying and 
spreading to new areas. To date, approximately 1.5 million acres of 
lodgepole pine have been infested in Colorado. Nearly 1 million acres 
of lodgepole pine were infested in 2007 alone, and more than half of 
these acres occurred in areas that were previously unaffected. The 
total acreage affected represents the vast majority of the State's pure 
lodgepole pine forests. However, not all of the infestation is 
occurring in stands comprised of predominately lodgepole pine; some of 
the MPB-infested acreage is in mixed forest types that have a lodgepole 
pine component.
    The dead, dry fuels resulting from beetle-killed trees pose a 
wildfire threat to mountain homes, communities, and economies that 
depend on recreation and tourism. Impacts from the current epidemic 
also can pose a serious and costly threat to watersheds that provide 
drinking water. In addition, roads, power lines, critical 
infrastructures, wildlife habitat, and other natural resources also are 
at risk, making the epidemic a matter of public and economic concern.
    A reliable source of wood that sustains a viable forestry industry 
will allow forest management to occur on a meaningful scale over the 
long-term. Industry can use the resource that would otherwise become 
fuel for future forest fires. Industry capacity also can help reduce 
the cost of forest management for landowners in and near communities at 
risk to mitigate wildfire hazard. The costs of wildfire mitigation and 
forest management projects can be prohibitive, thus limiting 
implementation.
    Thank you for the opportunity to provide testimony.
    The Colorado State Forest Service (CSFS) provides leadership in 
forest management coordination across Federal and non-Federal lands to 
help ensure that landowner assistance, treatment, and outreach efforts 
are focused on protecting communities at risk. The main goals of the 
CSFS are to:
  --Protect life, property, critical water supplies, and public 
        infrastructures;
  --Concentrate resources and increase forest management activities on 
        the highest priority areas identified by local communities in 
        their Community Wildfire Protection Plans, State land plans, 
        county fire plans, local fire plans, forest management plans, 
        and other critical documents;
  --Promote and facilitate wood utilization; and
  --Promote long-term sustainable forest management to help reduce the 
        impacts of insect and disease outbreaks, and foster a 
        resilient, healthy forest condition.
    CSFS participates in and supports the efforts of the Colorado Bark 
Beetle Cooperative. We believe in a collaborative approach that 
demonstrates collaboration and consensus in achieving the desired 
goals. The Cooperative has shown accomplishment not only in treating 
acres, but in collectively fostering awareness and action around bark 
beetle-related efforts.
    Thank you for the opportunity to provide testimony.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground conservation work is carried out in 
all 50 States and in more than 30 foreign countries and is supported by 
approximately 1 million individual members. The Nature Conservancy has 
protected more than 117 million acres of land and 5,000 miles of river 
around the world. Our work also includes more than 100 marine 
conservation projects in 21 countries and 22 U.S. States.
    In Colorado, The Nature Conservancy is dedicated to conserving the 
State's rich natural heritage and our way of life. We have worked with 
local communities for over 30 years, and have protected more than 
600,000 acres of forests, prairies, canyons and wetlands. The 
conservancy works to achieve lasting results by finding common ground 
with diverse partners. Our approach is based on sound, scientific 
analysis that accounts for the needs of people as well as ecosystems.
                     sustaining colorado's forests
    Many of Colorado's 22.6 million acres of forestland are on the cusp 
of dramatic change. In Colorado's high country, a multiyear bark beetle 
epidemic is transforming the face of lodgepole pine forests. On the 
Front Range, millions of acres of dense, even-aged ponderosa pine are 
poised to regenerate through fire. Throughout the West Slope, aspen 
forests are dying by the thousands of acres due to sudden aspen 
decline, likely a result of drought and changing climate. Along 
riverways, precious riparian forests are being crowded out by the 
aggressive invasion of tamarisk.
    There is broad agreement in Colorado that forest restoration is 
essential and, in many landscapes, that restoration treatments can 
benefit both ecological and human communities. However, the demands of 
effective treatment far exceed both the jurisdiction and the resources 
of any individual agency or landowner. To be most effective, forest 
management in the State must be implemented at a landscape scale, 
across ownership boundaries, and with the support of local communities.
    There are several community-based forest collaboratives actively 
working in Colorado to improve the health of our forests. Groups such 
as the Front Range Roundtable, Colorado Bark Beetle Coalition, Public 
Lands Partnership and Culebra Community Coalition have established 
priorities for forest treatment in their respective landscapes that are 
science-based and provide social and economic benefits as well as 
ecological improvement.
    State and local entities have spent significant resources on 
implementing priority projects on non-Federal lands, but in order for 
forest management to occur on a meaningful scale in Colorado the 
Federal land management agencies, particularly the U.S. Forest Service 
(FS) and Bureau of Land Management, must also engage and invest in 
accomplishing these collaborative goals.
    Over the past decade, Federal agencies in Colorado have struggled 
to obtain the resources needed to carry out pro-active forest 
restoration and community protection treatments because of funding 
formulas at the national level and the growing demand to pay for costly 
wildfire suppression. In addition to this challenge, Federal agencies 
have not had adequate incentive to prioritize landscape-scale forest 
management projects that involve multiple ownerships, are supported by 
local collaboration, and offer opportunities to reduce costs and 
contribute to local economies through utilization of woody biomass. 
While this type of project may involve greater complexity due to scale, 
ownerships and time-frame, the ultimate result on the ground is often 
much more significant than an isolated project that is implemented on a 
single ownership and without local involvement or support.
    As the subcommittee considers how to respond to the current 
mountain pine beetle epidemic in the western United States, as well as 
the need to address other pressing forest health challenges, we 
respectfully suggest the following actions to increase both the 
resources and the effectiveness of Federal activity in the forests of 
Colorado and throughout the Nation:
  --Increase Funding for Pro-active Forest Management and Community 
        Protection by 10 Percent \1\.--FS line items for hazardous 
        fuels and State fire assistance support pro-active wildfire 
        risk reduction and forest restoration projects that improve 
        conditions for both communities and the environment and can 
        reduce the need for costly wildfire suppression. When invested 
        strategically, these funds can address priority forest health 
        challenges in diverse forest types and on multiple ownerships.
---------------------------------------------------------------------------
    \1\ See attached Fiscal Year 2009 Wildfire Appropriations Briefing 
Paper for a summary of The Nature Conservancy's detailed 
recommendations regarding Federal wildfire funding priorities.
---------------------------------------------------------------------------
  --Provide Relief for the Wildfire Suppression Funding Crisis.--The 
        Federal cost of extinguishing wildfires continues to grow 
        exponentially to the detriment of other critical agency 
        missions. The partitioned funding approach being considered in 
        Congress could provide relief to this situation and free up 
        essential dollars for priority forest management.
  --Set Clear Priorities for Hazardous Fuels Treatments.--Hazardous 
        fuels treatments must be carefully targeted in the face of 
        increasing wildfire and limited resources. The recent 
        introduction of the Forest Landscape Restoration Act (S. 2593) 
        in the Senate and House would further improve prioritization by 
        directing investment to large-scale, collaboratively supported 
        projects that maximize ecological, social and economic 
        benefits.
  --Provide Funding To Address Tamarisk Invasion in Riparian Forests.--
        Colorado's 232,000 acres of riparian forest provide essential 
        water quality and wildlife habitat benefits disproportionate to 
        their size. Nearly a quarter of these forests are threatened by 
        aggressive invasion of tamarisk. Full funding of the Salt Cedar 
        and Russian Olive Control Demonstration Act (Public Law 109-
        320) is needed to mitigate the spread of this noxious weed.
  --Incorporate Conservation in Climate Change Responses.--The 
        Lieberman-Warner Climate Security Act (S. 2191) contains 
        critical provisions for funding of wildlife, habitat and other 
        conservation as part of a proposed cap-and-trade program to 
        address climate change. These dedicated resources could assist 
        species and ecosystems that are placed at serious risk by 
        changing environmental conditions.
                funding for pro-active forest management
    Both the Colorado Bark Beetle Coalition and the Front Range 
Roundtable have called for increased treatment of hazardous fuels to 
reduce the risk of wildfire to communities and watersheds and to 
restore greater resilience to current and future forests. When combined 
with responsible cost containment measures, including the use of 
managed fire to reduce fuels, this type of pro-active forest management 
is among the most effective ways to reduce wildfire suppression costs 
in the long-term.
    Using hazardous fuels funding provided through the national fire 
plan, Federal agencies have treated 24 million acres in the past 6 
years. These national fire plan accomplishments demonstrate that it is 
possible to accelerate treatments to reduce hazardous fuels and improve 
forest health at a nationally significant scale.
    The current investment in fuels treatment is about $500 million per 
year for both the FS and the Department of the Interior, but this 
amount is small in comparison to the more than $2 billion per year that 
has been required for fire preparedness and suppression in recent 
years. We recommend a 10 percent increase in hazardous fuels funding to 
maximize restoration of forest health and resiliency and to reduce 
future fire suppression costs.
    The State Fire Assistance Program in the FS and the Rural Fire 
Assistance Program in the Department of the Interior provide companion 
funding that enables State and local officials to reduce hazardous 
fuels and implement other community protection measures on non-Federal 
lands. These funds also support State and local fire response 
organizations, FireSafe Councils and the development and implementation 
of community wildfire protection plans. We recommend a 10 percent 
increase in State fire assistance funding as a means of reducing large 
fire costs through investments in partnerships and community safety.
    In Colorado, increased hazardous fuels reduction funding would 
enable Federal agencies to work with groups like the Colorado Bark 
Beetle Coalition and Front Range Roundtable to implement 
collaboratively prioritized forest management projects to restore 
forest health and benefit local economies. Additional State fire 
assistance dollars would help communities affected by bark beetles put 
fire protection zones in place and support community wildfire 
protection planning in other high risk areas such as the wildland-urban 
interface on the Front Range.
           relief for the wildfire suppression funding crisis
    The United States Department of Agriculture's Forest Service spent 
$1.5 billion on fire suppression in 2006, the sixth time in a decade 
that its annual suppression costs exceeded $1 billion. Fire suppression 
expenditures as a proportion of the FS budget have grown with alarming 
speed. In fiscal year 2008, the FS is spending 46 percent of its budget 
on wildfire suppression compared to 13 percent in 1991. The requirement 
to fund the suppression costs associated with such expensive fires 
reduces sharply the agencies' ability to fund its other resource 
programs. The negative impacts on conservation are significant and 
lasting, as vital land management programs and needs are neglected.
    The concept of ``partitioning'' the FS budget, as proposed in the 
Federal Land Assistance, Management and Enhancement (FLAME) Act (H.R. 
5541) and related bills, offers a promising solution to the financial 
crisis facing the agency. Funding the predictable, fixed costs of fire 
suppression through regular appropriations and creating a separate fund 
for emergency expenses to fight large-scale, long-duration events would 
relieve the need for the FS to borrow funds from other programs to pay 
for suppression costs. Partitioning would enable the FS to devote its 
nonfire program funds to the multiple purposes for which they were 
intended, while assuring the necessary financial resources to 
aggressively suppress wildfires that threaten life, property and 
important natural resources.
    In addition to establishing a separate emergency suppression fund, 
we urge you to consider a comprehensive solution that includes robust 
cost containment measures and comparable Federal investment in 
hazardous fuel reduction, forest restoration and community fire 
assistance as recommended in the Nation's forest health blueprint, the 
Ten Year Comprehensive Strategy and Implementation Plan (TYIP). Even 
with a separate emergency suppression fund in place, the Federal 
agencies will need to continue their efforts to contain fire costs and 
ensure the best use of taxpayer funds. Current budget constraints must 
also be addressed to enable the Federal agencies to direct available 
dollars to priority forest management needs beyond wildfire.
    The Nature Conservancy strongly supports the efforts of 
Congressional members to seek solutions to the fire-suppression funding 
crisis for the benefit of forests in Colorado and across the Nation. 
Without action to stabilize fire suppression funding, we risk 
sacrificing the management of our immense and irreplaceable system of 
National Forests, as well as the benefits and services provided by the 
agency's State and Private Forestry and Research branches, for years to 
come.
               priorities for hazardous fuels treatments
    In the face of tremendous need and limited resources, hazardous 
fuel reduction treatments should be prioritized for areas where high 
fuel loads and significant human populations intersect. Whenever 
possible, costs should be reduced through the use of managed fire 
rather than mechanical treatment and through the utilization of any 
timber or other woody biomass produced.
    The FS and Department of the Interior improved their ability to set 
clear national priorities for fuels treatment in fiscal year 2008. 
Using the newly available LANDFIRE data as a foundation, the FS 
developed an Ecosystem Management Decision Support tool to guide the 
allocation of treatment funding. The Department of the Interior will 
use the same tool in fiscal year 2009.
    The proposed Forest Landscape Restoration Act (S. 2593) would 
enable Federal agencies to further prioritize up to $40 million in 
hazardous fuels dollars, through a competitive process, on large-scale 
forest restoration projects that involve a strong science foundation, 
collaboration, and utilization of woody biomass.
    This approach would ensure that available resources are invested in 
areas where there is diverse agreement on the actions needed, making 
long-term success more likely, and where implementation can occur on a 
meaningful ecological scale. The multi-year timeframe for these 
projects would also facilitate more effective engagement and investment 
by local forest industries and related businesses, thus reducing the 
overall cost of forest treatments.
    The Nature Conservancy urges continued emphasis on prioritization 
of hazardous fuels treatment funds, based on collaboration and the best 
available data, and supports passage, implementation and funding of S. 
2593.
                 funding to mitigate tamarisk invasion
    Colorado's 232,000 acres of riparian forest consist primarily of 
cottonwood, willow, and shrub species which grow along rivers, streams, 
and creeks throughout the State. Benefits provided by these forests 
include maintenance of water quality and quantity, recharging of 
groundwater, reduced potential for flooding or erosion, and provision 
of critical wildlife habitat.
    Vast infestations of the nonnative shrub tamarisk have seriously 
compromised the viability of these riparian systems. Negative impacts 
of these infestations include habitat degradation, increased risk of 
flooding and severe fire, reduced forage and access to water for 
livestock, and extensive nonbeneficial use of water.
    The Nature Conservancy has identified tamarisk control as a 
cornerstone in the success of several river restoration initiatives, 
particularly those related to the iconic Colorado River. While action 
is underway, estimates show that more than $36 million is needed over 
the next 5 years to address both control and maintenance of tamarisk 
infested areas in the upper Colorado River basin. The challenge in 
other parts of the State is equally large.
    The Colorado Department of Natural Resources, with support from the 
General Assembly, has established a Tamarisk and Russian Olive Control 
Cost-Share Grant Program to encourage local community participation and 
on-the-ground action in tamarisk control efforts. But in order for 
tamarisk to be addressed at a meaningful scale, significant Federal 
investment is also required.
    The Salt Cedar and Russian Olive Control Demonstration Act of 2006 
(Public Law 109-320) provides the framework and the authority for 
Federal agencies to work together in assessing the extent of tamarisk 
infestation in the West and carrying out five demonstration projects 
that model and test control techniques. We believe it is essential that 
local, State and Federal partners proceed with these projects as 
quickly as possible and urge the full funding of this act at $15 
million for fiscal year 2009.
         attention to conservation in addressing climate change
    The Rocky Mountain Climate Organization issued a report in March 
2008 showing that the American West is being affected by a changed 
climate more than any other part of the United States outside of 
Alaska. According to the report, titled ``Hotter and Drier: the West's 
Changing Climate'', our region has heated up even more than the world 
as a whole.
    According to the Intergovernmental Panel on Climate Change (IPCC), 
warming temperatures are significantly affecting ecosystems and 
wildlife. A recent IPCC assessment warns of extinctions of 20-30 
percent of species without significant action to address climate 
warming. Colorado's forests show the symptoms of this large-scale 
change in the form of increases in the size and occurrence of wildfire, 
a dramatic proliferation of bark beetles and the rapid mortality of 
aspen trees.
    Reducing emissions of the greenhouse gases that are triggering 
climate change is essential to stave off mass extinctions and major 
disruptions of ecosystems, but it is not sufficient. Even with 
immediate action to reduce greenhouse gas emissions those effects will 
continue for decades to come. For this reason, there is growing 
interest in addressing the resilience of ecosystems, and ensuring 
funding is available to develop and implement adaptation strategies for 
human and natural systems in a changing climate.
    The Nature Conservancy is strongly supportive of the commitment to 
conservation and wildlife and habitat protection reflected in the 
Lieberman-Warner Climate Security Act legislation (S. 2191), in 
particular the inclusion of language directing revenues from a cap-and-
trade program toward science, planning and the development and 
implementation of natural resources adaptation strategies by Federal 
and State agencies and their conservation partners.
                                summary
    Colorado's forests are central to the State's identify and quality 
of life. The stewardship of our forests depends on coordinated action 
across ownership boundaries at a meaningful scale. Federal land 
management agencies are essential to this equation and must be provided 
with the direction and resources they need to effectively implement 
priority forest management projects. We believe that targeted increases 
in funding for community protection and ecological restoration, 
combined with relief from the current wildfire suppression funding 
crisis, will enable significant progress toward greater resiliency for 
the forests of Colorado and other Western States. We also encourage you 
to incorporate resources for mitigation and adaptation strategies 
related to climate change into funding for forests, wildlife and 
watersheds, to ensure that the potential for negative impacts is pro-
actively addressed.

                         CONCLUSION OF HEARING

    Senator Allard. All right, well, thank you all for being 
here. That concludes our hearing.
    [Whereupon, at 11:42 a.m., Tuesday, May 6, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


</pre></body></html>
